No. 21-________
IN THE

Supreme Court of the United States
___________________
WASHINGTON COUNTY, UTAH,

Petitioner,

v.
MARTIN CROWSON,

Respondent.

___________________
On Petition for a Writ of Certiorari
To the United States Court of Appeals
for the Tenth Circuit
___________________
PETITION FOR A WRIT OF CERTIORARI
___________________
Frank D. Mylar

Counsel of Record

MYLAR LAW, P.C.
2494 Bengal Blvd.
Salt Lake City, Utah 84121
Phone: (801) 858-0700
office@mylarlaw.com

Counsel for Petitioner

i
QUESTION PRESENTED
Whether a municipal government can be liable under
the Eighth Amendment of the United States
Constitution for a denial of inmate medical care under
§ 1983 when none of the government’s employees or
officials acted with deliberate indifference towards the
inmate’s serious medical needs?

ii
PARTIES TO THE PROCEEDING
Petitioner is Washington County, a County within
the State of Utah. Respondent is Martin Crowson. The
other parties of this lawsuit are not a part of this
proceeding.
PROCEEDINGS DIRECTLY
RELATED TO THIS CASE
•

Crowson v. Washington County, et al.,
2:15-cv-880-TC
In the United States District Court for the
District of Utah.
Summary Judgment denied per order and
memorandum decision entered July 19, 2019.

•

Crowson v. Washington County, et al.,
No. 19-4118; No. 19-4120
In the United States Court of Appeals for the
Tenth Circuit.
Opinion entered December 29, 2020.

iii
TABLE OF CONTENTS
Question Presented ......................................................i
Parties to the Proceeding ........................................... ii
Proceedings Directly Related to this Case ................ ii
Table of Contents ...................................................... iii
Table of Authorities..................................................... v
Decisions Below ........................................................... 1
Jurisdiction .................................................................. 1
Pertinent Constitutional and
Statutory Provisions .............................................. 1
Statement of the Case ................................................. 2
Reason for Granting the Petition ............................... 4
I. United States Supreme Court precedents
hold that a municipality is not liable under
§ 1983 in the absence of an employee or
official that deprived a plaintiff of his or
her constitutional rights. ....................................... 6
A. Supreme Court precedents require a
municipal policy that directly caused an
employee to violate a plaintiff’s
constitutional rights before liability can
be imposed upon a municipality. ..................... 7

iv
B. Garcia misinterpreted Monell and other
Supreme Court cases. ..................................... 11
II. Other Supreme Court decisions support
granting certiorari. .............................................. 13
Conclusion ................................................................. 16
PETITION’S APPENDIX
TABLE OF CONTENTS
United States Court of Appeals, Tenth Circuit
Opinion in 19-4118
Issued December 29, 2020......................................... 1a
United States District Court, District of Utah
Central Division
Order on Motions to Dismiss
in 2:15-CV-00880-TC
Issued February 22, 2017........................................ 47a
United States District Court, District of Utah
Central Division
Order and Memorandum Decision
in 2:15-CV-00880-TC
Issued July 19, 2019 ................................................ 57a
United States Court of Appeals, Tenth Circuit,
Order on rehearing in 19-4118
Issued on February 18, 2021................................... 79a

v
TABLE OF AUTHORITIES
Cases

Board of County Commissioners of
Bryan County, Oklahoma v. Brown,
520 U.S. 397 (1997) .................................. 14, 15, 16

Canton v. Harris,
489 U.S. 378 (1989) ............................................ 8, 9

City of Los Angeles v. Heller,
475 U.S. 796 (1986) ...................................... 4, 7, 10

Collins v. City of Harker Heights, Tex,
503 U.S. 115 (1992) ........................................ 14, 15

Connick v. Thompson,
563 U.S. 51 (2011). ............................................. 8, 9

Crowson v. Wash. Cty.,
2019 U.S. Dist. LEXIS 121057
(D. Utah 2019) .................................................. 4, 10

Crowson v. Wash. Cty.,
983 F.3d 1166 (10th Cir. 2020) ............ 2, 3, 6, 8, 10

Garcia v. Salt Lake County,
768 F.2d 303 (10th Cir. 1985) .......................... 6, 10

Monell v. Dep’t of Soc. Servs.,
436 U.S. 658 (1978). ................... 3, 8, 10, 11, 12, 13

Monroe v. Pape,
365 U.S. 167 (1961) .............................................. 11

vi

Oklahoma v. Tuttle,
471 U.S. 808 (1985) ................................................ 8

Owen v. City of Independence,
445 U.S. 622 (1980) ........................................ 13, 14

St. Louis v. Praprotnik,
485 U.S. 112 (1988) ................................................ 9

Trigalet v. City of Tulsa,
239 F.3d 1150 (10th Cir. 2001) ................ 14, 15, 16
Statutes
28 U.S.C. § 1254 .......................................................... 1
28 U.S.C. § 1291 .......................................................... 1
28 U.S.C. § 1331 .......................................................... 1
42 U.S.C. § 1983 .................... 1, 2, 5, 6, 7, 8, 11, 12, 15
Other Authorities
U.S. Const. amend. VIII .............................................. 1

1
DECISIONS BELOW
The opinions of the United States Court of Appeals
for the Tenth Circuit, App.1a-46a, is reported at 983
F.3d 1166 (10th Cir. 2020).
The opinion of the United States District Court for
the District of Utah, App. 57a-78a, is reported at 2019
U.S. Dist. LEXIS 121057 (D. Utah 2019).
JURISDICTION
The district court had jurisdiction under 28 U.S.C.
§ 1331. The Tenth Circuit had appellate jurisdiction
under 28 U.S.C. § 1291 and filed its opinion on
September 9, 2020, which reversed the district court
in part and upheld the district court on one point. The
Tenth Circuit denied Petitioner’s petition for
rehearing through its Order of October 26, 2020. This
Court has jurisdiction under 28 U.S.C. § 1254(1).
PERTINENT CONSTITUTIONAL
AND STATUTORY PROVISIONS
The Eighth Amendment
Constitution provides:

to

United

States

Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and unusual
punishments inflicted.
42 U.S.C. § 1983 provides, in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State . . ., subjects, or causes to be subjected,
any citizen of the United . . . to the deprivation

2
of any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable to
the party injured . . . .
STATEMENT OF THE CASE
Martin Crowson was an inmate at the Washington
County Purgatory Correctional Facility (the “Jail”)
when he began suffering from symptoms of toxic
metabolic encephalopathy. Nurse Michael Johnson
and Dr. Judd LaRowe, two of the medical staff
members responsible for Mr. Crowson’s care, wrongly
concluded Mr. Crowson was experiencing drug or
alcohol withdrawal. On the seventh day of medical
observation, Mr. Crowson’s condition deteriorated,
and he was transported to the hospital, where he was
accurately diagnosed. After Mr. Crowson recovered,
he sued Nurse Johnson, Dr. LaRowe, and Washington
County under 42 U.S.C. § 1983, alleging violations of
the Eighth and Fourteenth Amendments.

Tenth Circuit Court of Appeals Ruling:
The United States Court of Appeals for the Tenth
Circuit concluded that nurse Johnson did not violate
Plaintiff’s constitutional rights and this conclusion
overturned the lower court’s decision. The lower court
specifically had already dismissed all claims against
the Sheriff in his individual capacity, who was the
final policymaker, and claims against P.A. Worlton,
the Jail’s medical administrator, and a Corrections
officer. Crowson v. Wash. Cty., 983 F.3d 1166, 1176
n.6 (10th Cir. 2020). No single person, official, or
nurse, employed by the County, violated Plaintiff’s
constitutional right.

3
Despite the fact that no County officer, official, or
nurse violated Plaintiff’s constitutional rights, the
Tenth Circuit Court of Appeals nonetheless carved out
a new form of liability that it defined as “systemic
failure” liability which runs directly contrary to
Monell v. Dep’t of Soc. Servs., 436 U.S. 658 (1978) and
its progeny at the United States Supreme Court.
Crowson, 983 F.3d at 1174 (10th Cir. 2020). This
theory was not even pled in Plaintiff’s complaint. The
theory of liability is not dependent upon a finding of
“deliberate
indifference”
by
any
employee,
policymaker, or official. Not even mere negligence or
malpractice is required to support this theory of
liability. All that is needed is a “system failure” which
was left undefined. If there is a concept of liability
called “systemic failure,” it certainly could not be this
case where Plaintiff received treatment and was later
taken to the hospital and his life was spared and he is
doing reasonably well, despite the misdiagnosed
ailment.
The Court of Appeals did reverse the lower court
with respect to the County on the “failure to train
claims” but refused to reverse on the “systemic
failure” claim. Id. Neither of these claims were pled in
Plaintiff’s pleadings nor were they articulated by the
district court order.

Lower Court’s Findings and Conclusions:
Defendants Johnson and Washington County
moved for summary judgment, with Johnson
asserting qualified immunity. The district court
denied this motion. With regards to Johnson it found
that he failed to seek medical care for Plaintiff and
inform Dr. LaRowe with a full accounting of Plaintiff’s

4
symptoms, and that a jury could determine this
amounted to deliberate indifference. With regards to
Washington County, the district court found a
reasonable jury could find the County’s policies were
deficient. Crowson v. Wash. Cty., 2019 U.S. Dist.
LEXIS 121057, *14 (D. Utah 2019). No claim of
“system failure” was pled, argued, or ruled upon by
the district court.
REASON FOR GRANTING THE PETITION
This Court has never directly addressed the
question in this case since its decision in City of Los
Angeles v. Heller, 475 U.S. 796 (1986). The Court of
Appeals decision significantly expands municipal
liability contrary to United States Supreme Court
precedent. This Petition seeks review of what was
termed a “systemic failure” claim against the county,
where the Tenth Circuit held that no constitutional
violation by any county employee or official was
necessary to hold the county liable for an alleged
defective county policy, and thus disposed of the direct
causation requirement. See Crowson, 983 F.3d at
1191. This is a new theory of supervisory liability that
is not supported by this Court and was never alleged
in the complaint.
The similar failure to train “claim” against the
County was reversed in favor of the County by the
Court of Appeals as were the claims brought against
Nurse Johnson and Dr. LaRowe. However, a “failure
to train claim” was also not raised in the complaint.
No review is sought of the reversed claims or parties.
However, the Tenth Circuit’s Decision on the new
“systemic failure” claim conflicts with this Court’s
precedents, and those decisions mandate that a

5
municipality is not liable for an alleged
unconstitutional policy when a county employee did
not violate a plaintiff’s constitutional rights. The
Court of Appeals decision is a significant departure
from recent and historical rulings and will negatively
impact jails and all local governments if not reversed,
causing almost all local government cases to proceed
to trial, when they should have been dismissed on
summary judgment. It has the effect of making local
governments liable for any conduct of its employees,
even when the conduct does not even rise to the level
of negligence or malpractice.
The Tenth Circuit decision does not provide a clear
rule of decision but opens the door for trial and
appellate courts to individually assess the policies of
correctional facilities and governments even though
the policies are not unconstitutional and even though
no employee was even negligent towards a plaintiff. It
further dispenses with the causation requirement of
Section 1983 that applies specifically to local
governments.
Since the Tenth Circuit’s Decision is published, it
is expedient that this Court grant Certiorari to
further hear this matter or to summarily reverse this
ruling that a local government can be held liability
without showing at least one employee or a final
policymaker acted with deliberate indifference to the
plaintiff’s constitutional rights. This decision must be
promptly reversed to avoid confusion in municipal
liability law under 42 U.S.C. § 1983. This is further an
important issue for the High Court to address to
prevent lower Courts of Appeals and trial courts from
substituting their judgment as to corrections policies.

6

I. United States Supreme Court precedents hold that
a municipality is not liable under § 1983 in the
absence of an employee or official that deprived a
plaintiff of his or her constitutional rights.
The Tenth Circuit’s Decision finding Washington
County liable under a newly created “systemic failure”
theory, even when no single employee or policymaker
violated Plaintiff’s constitutional rights, is based
solely upon the application of an outdated Tenth
Circuit Court of Appeals decision, Garcia v. Salt Lake
County, 768 F.2d 303 (10th Cir. 1985), that is contrary
to United States Supreme Court precedents and to all
Tenth Circuit Court of Appeals decisions rendered
since Garcia. Garcia held that several employees
could somehow join together, with no wrongful
individual acts, and violate a plaintiff’s rights even
though no single employee actually deprived plaintiff
of a constitutional right. However, Garcia did not
address whether the final policymaker had to be
“deliberately indifferent” in implementing an
unconstitutional policy that caused this group
violation.
The Tenth Circuit opines that an underlying
constitutional violation is necessary if the plaintiff
brings a “failure to train” claim, but not for a “systemic
failure” claim. Crowson, 983 F.3d at 1192. This
conclusion by the appellate court makes two
erroneous assumptions: (1) that a local government
can act apart from human beings and (2) that there
are various theories of liability that can be asserted

7
against a municipality under § 1983. Both
assumptions are incorrect based upon United States
Supreme Court precedents. Numerous Tenth Circuit
Court of Appeals opinions follow the United States
Supreme Court’s decision in City of Los Angeles v.
Heller, 475 U.S. 796 (1986), which is contrary to the
Garcia decision. This Court should summarily reverse
the Tenth Circuit’s decision, consistent with United
States Supreme Court precedents.
A. Supreme Court precedents require a municipal
policy that directly caused an employee to
violate a plaintiff’s constitutional rights before
liability can be imposed upon a municipality.

Heller clarified what was assumed in prior
Supreme Court cases, holding that a municipality
cannot be liable when the actions of officers, that were
directed at the plaintiff, did not amount to a
constitutional violation. Id. at 799. In this case,
Crowson was treated by Nurse Johnson, a Physician
Assistant, other nurses, and Jail officers, yet none of
their actions were unconstitutional in their treatment
of Crowson. In addition, even the final policymaker
was absolved of deliberate indifference in his
individual capacity on a motion to dismiss. Heller
held:
If a person has suffered no constitutional injury
at the hands of the individual police officer, the
fact that the departmental regulations might
have authorized the use of constitutionally
excessive force is quite beside the point.

Id. (emphasis added). There is no doubt that Heller is
talking about an unconstitutional policy in the above

8
quote and not mere training. The Tenth Circuit
incorrectly holds that the employee constitutional
violation requirement only applies to “failure to train
claims” as if it was a separate cause of action against
a county. Crowson, 983 F.3d at 1192.
All municipal claims brought under § 1983 must
show a policy directly caused a constitutional
violation. See Canton v. Harris, 489 U.S. 378, 385
(1989) (quoting Monell v. Dep’t of Soc. Servs., 436 U.S.
658, 694 (1978)). There are not a myriad of theories of
liabilities against municipalities under Section 1983.
Failure to train claims are just another way of saying
the policy of failing to train directly caused the
violation. A plaintiff must show a widespread pattern
of unconstitutional activity that can be said to be a
policy or custom. See generally Connick v. Thompson,
563 U.S. 51, 59-63 (2011). In fact, Connick, relying on
several prior Supreme Court decisions, states that a
city may be liable for failure to train if the failure can
be said to have been a policy. It expanded on this issue
holding:
In limited circumstances, a local government’s
decision not to train certain employees about
their legal duty to avoid violating citizens’
rights may rise to the level of an official policy
for purposes of § 1983.

Id. at 61. Connick favorably cites two prior
decisions that refer to a failure to train claim as a
“. . . policy of ‘inadequate training . . . ’” Id. (citing
Oklahoma v. Tuttle, 471 U.S. 808, 822-23 (1985)).
Connick demonstrates that the failure to train must
be considered a “policy” holding, “Only then ‘can such

9
a shortcoming be properly thought of as a city ‘policy
or custom’ that is actionable under § 1983.’” Id. (citing
Canton, 489 U.S. at 388-89).
These decisions illustrate that all plaintiffs must
show that a city implemented an unconstitutional
policy that directly caused at least one of their
employees to violate the plaintiff’s rights under
Section 1983. Whether it is termed a failure to train
or systemic failure, the causation requirement of
showing that the city action rose to the level of being
considered a policy must have caused an employee to
violate a person’s constitutional rights. Therefore,
there is no legal basis for the Tenth Circuit to
distinguish between “failure to train claims” and
“systemic failure claims” since in all instances, the
failure must rise to the level of policy to be actionable
under § 1983.
Even more pertinent to this Petition is the
Supreme Court rule that a city can only act through
its employees who are human beings. This principle
was established in Monell but has been reiterated
over the years. For example, in discussing the holding
of Monell years later the Supreme Court ruled,
Aware that governmental bodies can act only
through natural persons, the Court concluded
that these governments should be held
responsible when, and
only when, their
official policies cause their employees to violate
another person’s constitutional rights.

St. Louis v. Praprotnik¸ 485 U.S. 112, 122 (1988). This
statement alone is cause for reversal of the Tenth
Circuit’s decision.

10
Mr. Crowson in this case was cared for by Nurse
Johnson. Johnson and his fellow defendants before
the lower court all interacted with Mr. Crowson, yet
none of them violated his constitutional rights. All
Jail employees, including the Sheriff (in his individual
capacity), were dismissed by prior motions in the
district court (983 F.3d at 1176 n.6; 2019 U.S. Dist.
LEXIS 121057, at *7-*8), while Johnson was found not
to have violated Crowson’s constitutional rights by the
Tenth Circuit on appeal. Dr. LaRowe was not a county
employee, so his actions could not contribute to county
liability as a matter of law. The Tenth Circuit
overlooked the above precedents in its published
ruling because it incorrectly believed it had to rely
upon Garcia v. Salt Lake County, 768 F.2d 303 (10th
Circuit 1985) as if it were valid precedent after Heller.

Garcia holds that a county can be liable even
though no county employee violated a plaintiff’s
rights. Garcia arrived at that conclusion by
misquoting Monell v. Dep’t of Soc. Servs., 436 U.S. 658
(1978). Numerous Supreme Court cases since Monell
clarify different aspects of that decision, yet even in
Monell it is assumed that a city cannot be liable
without an underlying constitutional violation. Id. at
690. Garcia stands alone for its contrary proposition
even though multiple cases in the Tenth Circuit reject
its holding after the Supreme Court’s decision in City
of Los Angeles v. Heller, 475 U.S. 796 (1986). The
Crowson decision enables the Tenth Circuit to ignore
Heller in favor of Garcia.

11
B. Garcia misinterpreted
Supreme Court cases.

Monell

and

other

Monell is largely known for reversing the holding
of Monroe v. Pape, 365 U.S. 167 (1961), which held
that local governments were not “persons” that could
be sued within the meaning of 42 U.S.C. § 1983. In
this context, Monell severely limited under what
circumstances a city could be sued, holding that a city
could not be held liable merely for the
unconstitutional acts of its employees. Monell, 436
U.S. at 694. The fact that employees violated
plaintiff’s Constitutional rights was assumed in
Monell. For this reason, it was incorrect for the Garcia
Court to infer that any wording in Monell supports
Garcia’s conclusion that a local government can be
liable when no employee violated a plaintiff’s
constitutional rights. The idea of grouping employees
together to cause an entity constitutional violation
has never been upheld by the Supreme Court. In fact,
an opposite conclusion is supported by Monell.
Monell is admittedly the first attempt to define
municipal liability under § 1983. Prior to that
decision, a city was not a person that could be sued.
Toward the conclusion of that decision, Monell states,
“we have no occasion to address, and do not address,
what the full contours of municipal liability under §
1983 may be…and we expressly leave further
development of this action to another day.” Id. at 695.
However, it was assumed in Monell that the city
employees violated the plaintiff class’ constitutional
rights.
In Monell, several individual officials in New York
were sued for acting pursuant to an unconstitutional

12
city policy by compelling “pregnant employees to take
unpaid leaves of absence before such leaves were
required for medical reasons.” Id. at 661. The district
court concluded “that the acts complained of were
unconstitutional . . . .” Id. On appeal the plaintiff class
appealed the district court ruling that the city was not
a person who could be sued under § 1983 and the
ruling that barred damages against the individual
defendants. Both arguments were rejected by the
Second Circuit Court of Appeals. The latter argument
because the city would have to pay for any damage
claims against the individuals sued in their official
capacities. Certiorari was granted to decide whether
“local governmental officials and/or local independent
school boards are persons within the meaning of
§ 1983 when equitable relief in the form of back pay is
sought . . . .” Id. at 662.

Monell concluded that local governments could be
sued under § 1983 when they adopt and promulgate
an unconstitutional policy by its body’s officers and
that the official policy must be responsible for a
constitutional violation. Id. at 690. However, the
policy need not take the form of a statute but could
include a governmental custom so long as the
practices were so permanent and well settled that
they had the force of law. Id. at 691. On the other
hand, a city could not be held liable “unless action
pursuant to official municipal policy of some nature
caused a constitutional tort . . . .” Id.

Monell then looked to the specific language of
§ 1983, which says, “shall subject or cause to be
subjected” to determine that a city could cause a
person to be deprived of their constitutional rights at

13
the hands of another person. Id. at 691-692. Monell
then, after quoting the text of § 1983, ruled, “The
italicized language plainly imposes liability on a
government that, under color of some official policy,
‘causes’ an
employee to
violate another’s
constitutional rights.” Id. at 692 (underlining added).
Monell then states Congress intended such causation
before a city could be liable. The causation referred to
here is that the city’s unconstitutional policy caused
one of its employees to violate a person’s
constitutional rights. Monell is reason alone to reverse
the Tenth Circuit. Garcia and the Tenth Circuit’s
Crowson decisions are contrary to Monell and other
Supreme Court cases.
II. Other Supreme Court decisions support granting
certiorari.
Several other Supreme Court decisions seem to
indicate that a plaintiff must prove that an
unconstitutional policy caused a municipal employee
to violate a plaintiff’s constitutional rights before the
municipality can be held liable under 42 U.S.C. §
1983. One Supreme Court case references the concept
of “system injury” but reaches a conclusion consistent
with Monell and contrary to the Tenth Circuit Court
of Appeals decision.
In Owen v. City of Independence, 445 U.S. 622, 652
(1980), this Court referenced the concept of
preventing “systemic injuries” but says nothing of
“systemic claims” against a municipality. Owen
makes a vague statement in passing that final
policymakers will have incentive to enact policies and
programs that will prevent various injuries, including
“systemic injuries.” Id. Owen is addressing the

14
defense of qualified immunity and that it does not
apply to cities. Id. Crowson is similarly attacking
Washington County’s policies that the Tenth Circuit
called “systemic failures.” Systemic failures is another
way of saying the policy is constitutionally defective.
Another Tenth Circuit case correctly reviews two
United States Supreme Court cases that also support
this Petition for Certiorari. In Trigalet v. City of
Tulsa, 239 F.3d 1150 (10th Cir. 2001), the Tenth
Circuit was expressly deciding whether a
municipality can be held liable when there is no
constitutional violation by the employee that
interacted with the plaintiff. Id. at 1151. That Court
made an extensive and careful review of United States
Supreme Court and Court of Appeals cases, even from
other Circuits. In addition, Trigalet relied upon two
United States Supreme Court cases which further
support Washington County’s position: Collins v. City
of Harker Heights, Tex, 503 U.S. 115 (1992) and

Board of County Commissioners of Bryan County,
Oklahoma v. Brown, 520 U.S. 397 (1997).
Collins holds that a court must answer two

questions before a city can be liable, not unlike a
court’s analysis of individual defendants in
addressing qualified immunity, where courts must
find both elements before qualified immunity can be
overcome. The two questions are: “(1) whether
plaintiff’s harm was caused by a constitutional
violation and (2) if so, whether the city is responsible
for that violation. Collins, 503 U.S. at 120. The two
elements are requirements and are not two different
theories of liability against a municipality as some
Circuits have hinted. Collins points out that Monell,

15
and other Supreme Court cases, assumed an
underlying constitutional violation by an employee
when assessing municipal liability. Collins also cites
a portion of § 1983 as further support for the two
requirements stating, ‘“Section 1983 provides a
remedy against “any person” who, under color of state
law, deprives another of rights protected by the
Constitution.”’ Id. Collins assumes that a
municipality can only be held liable when both of the
two questions are answered affirmatively, when the
county has also acted with deliberate indifference in
implementing that policy. There can be no liability
without both prongs based upon Collins. The Tenth
Circuit’s decision is in clear opposition to Collins and
the cases Collins cites when it ruled otherwise.

Trigalet further cited another key Supreme Court
case for the same holding: Board of County
Commissioners of Bryan County v. Brown, 520 U.S.
397 (1997). Trigalet cites to Brown as further
upholding this well-established rule stating, ‘“It is not
enough, however, that the plaintiff ‘identify conduct
properly attributable to the municipality.’” Trigalet,
239 F.3d at 1154 (citing Brown, 520 U.S. at 404).
The plaintiff must also demonstrate that,
through its own deliberate conduct, the
municipality was the “moving force” behind the
injury alleged. That is, a plaintiff must show
that the municipal action was taken with the
requisite degree of culpability and must
demonstrate a direct causal link between the

16
municipal action and the deprivation of federal
rights.

Trigalet, 239 F.3d at 1154 (citing Brown, 520 U.S. at
404) (underlining added). Id. These Supreme Court
cases cited by Trigalet, are justification for granting
this Petition.
A Court of Appeals should not rule contrary to so
many United States Supreme Court cases and create
a new theory of liability. If this Court does not fix this
mistaken reading of Heller, it will have a published
opinion that conflicts with numerous holdings of the
United States Supreme Court which will be cited by
all Circuits throughout the country.
CONCLUSION
The Tenth Circuit failed to accurately apply
United States Supreme Court precedents relating to
whether a municipality can ever be held liable when
no city employee violated a plaintiff’s constitutional
rights. It did so by relying upon decades old Circuit
precedent that was decided prior to the United States
Supreme Court’s decision in Heller. The Tenth
Circuit has significantly expanded liability for local
governments and failed to create a rule of decision
that will allow fair application of this new theory of
liability. Other Circuits have hinted at this idea in
dicta. There is a reasonable chance that all Circuits
will now cite the Crowson decision for a proposition
that is directly contrary to this Court’s precedents and
that effectively eliminates the causation requirement
of Section 1983 for municipal governments.

17
For these reasons, the petition for Certiorari
should be granted and the Tenth Circuit’s decision
should be reversed to the extent it does not require a
single county official or employee to have acted with
deliberate indifference and for creation of a new
“systemic failure” form of county liability.
Respectfully submitted this 16th day of July, 2021.
Frank D. Mylar

Counsel of Record

MYLAR LAW, P.C.
2494 Bengal Blvd.
Salt Lake City, Utah 84121
Phone: (801) 858-0700
office@mylarlaw.com

Counsel for Petitioner

Appendix
United States Court of Appeals, Tenth Circuit
Opinion in 19-4118
Issued December 29, 2020 ........................................ 1a
United States District Court, District of Utah
Central Division
Order on Motions to Dismiss
in 2:15-CV-00880-TC
Issued February 22, 2017........................................ 47a
United States District Court, District of Utah
Central Division
Order and Memorandum Decision
in 2:15-CV-00880-TC
Issued July 19, 2019 ................................................ 57a
United States Court of Appeals, Tenth Circuit,
Order on rehearing in 19-4118
Issued on February 18, 2021................................... 79a

1a
APPENDIX

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
___________________
No. 19-4118
D.C. Docket No. 2:15-CV-00880-TC
MARTIN CROWSON,
PLAINTIFF-APPELLEE,
V.

WASHINGTON COUNTY STATE OF UTAH, CORY
PULSIPHER, ACTING SHERIFF OF WASHINGTON COUNTY,
MICHAEL JOHNSON,
DEFENDANTS-APPELLANTS.
___________________
[December 29, 2020]
___________________
Appeal from the United States District Court
for the District of Utah

2a
___________________
Before MATHESON, BACHARACH, AND MCHUGH, Circuit
Judges.
___________________
McHugh, Circuit Judge:
___________________
Martin Crowson was an inmate at the Washington
County Purgatory Correctional Facility (the "Jail")
when he began suffering from symptoms of toxic
metabolic encephalopathy. Nurse Michael Johnson
and Dr. Judd LaRowe, two of the medical staff
members responsible for Mr. Crowson's care, wrongly
concluded Mr. Crowson was experiencing drug or
alcohol withdrawal. On the seventh day of medical
observation, Mr. Crowson's condition deteriorated
and he was transported to the hospital, where he was
accurately diagnosed. After Mr. Crowson recovered,
he sued Nurse Johnson, Dr. LaRowe, and Washington
County1 under 42 U.S.C. § 1983, alleging violations of

1 Mr.

Crowson also sued Cory Pulsipher, the acting Sheriff of
Washington County, in his official capacity. But official-capacity
suits "generally represent only another way of pleading an action
against an entity of which an officer is an agent." Kentucky v.

Graham, 473 U.S. 159, 165, 105 S. Ct. 3099, 87 L. Ed. 2d 114
(1985) (quoting Monell v. New York City Dept. of Soc. Servs., 436
U.S. 658, 690 n.55, 98 S. Ct. 2018, 56 L. Ed. 2d 611 (1978)) . "As
long as the government entity receives notice and an opportunity
to respond, an official-capacity suit is, in all respects other than
name, to be treated as a suit against the entity." Id. at 166. The
district court and the parties have treated Mr. Crowson's Monell

3a
the Eighth and Fourteenth Amendments.
The district court denied motions for summary
judgment on the issue of qualified immunity by Nurse
Johnson and Dr. LaRowe, concluding a reasonable
jury could find both were deliberately indifferent to
Mr. Crowson's serious medical needs, and that it was
clearly established their conduct amounted to a
constitutional violation. The district court also denied
the County's motion for summary judgment,
concluding a reasonable jury could find the treatment
failures were an obvious consequence of the County's
reliance on Dr. LaRowe's infrequent visits to the Jail
and the County's lack of written protocols for
monitoring, diagnosing, and treating inmates.
Nurse Johnson, Dr. LaRowe, and the County filed
these consolidated interlocutory appeals, which raise
threshold questions of jurisdiction. Nurse Johnson
and Dr. LaRowe challenge the district court's denial
of qualified immunity, while the County contends we
should exercise pendent appellate jurisdiction to
review the district court's denial of its summary
judgment motion.2
For the reasons explained below, we exercise
limited jurisdiction over Nurse Johnson's and Dr.
LaRowe's appeals pursuant to the exception to 28

claims against Sheriff Pulsipher accordingly. See, e.g., App., Vol.
I at 209 n.1; Appellee Br. at 7 n.2. We therefore refer only to
Washington County.
2 Nurse

Johnson and the County's Opening Brief is cited herein
as "County Br.," and their Reply Brief is cited as "County Reply."
Dr. LaRowe's Opening Brief is cited as "LaRowe Br.," and his
Reply brief is cited as "LaRowe Reply." Mr. Crowson's Brief is
cited as "Appellee Br."

4a

U.S.C. § 1291 carved out for purely legal issues of
qualified immunity through the collateral order
doctrine. See Mitchell v. Forsyth, 472 U.S. 511, 52430, 105 S. Ct. 2806, 86 L. Ed. 2d 411 (1985). We hold
Nurse Johnson's conduct did not violate Mr.
Crowson's rights and, assuming without deciding that
Dr. LaRowe's conduct did, we conclude Dr. LaRowe's
conduct did not violate any clearly established rights.
Our holding on Nurse Johnson's appeal is
inextricably intertwined with the County's liability on
a failure-to-train theory, so we exercise pendent
appellate jurisdiction to the extent Mr. Crowson's
claims against the County rest on that theory. See

Moore v. City of Wynnewood, 57 F.3d 924, 930 (10th
Cir. 1995). However, under our binding precedent, our
holdings on the individual defendants' appeals are not
inextricably intertwined with Mr. Crowson's claims
against the County to the extent he advances a
systemic failure theory. See id. We therefore reverse
the district court's denial of summary judgment to
Nurse Johnson and Dr. LaRowe, as well as to the
County on the failure-to-train theory, and we dismiss
the remainder of the County's appeal for lack of
jurisdiction.
I. BACKGROUND

A. Factual History3
On June 11, 2014, Mr. Crowson was booked into

3 Because

our interlocutory review of an order denying qualified
immunity is typically limited to issues of law, this factual history
is drawn from the district court's recitation of the facts. See

Mitchell v. Forsyth, 472 U.S. 511, 524-30, 105 S. Ct. 2806, 86 L.
Ed. 2d 411 (1985).

5a
the Washington County Purgatory Correctional
Facility for a parole violation. On June 17, due to a
disciplinary violation, Mr. Crowson was placed in
solitary confinement, known as the "A Block."
"On the morning of June 25, while still in solitary
confinement, Jail Deputy Brett Lyman noticed that
Mr. Crowson was acting slow and lethargic." App.,
Vol. I at 205. Deputy Lyman asked Nurse Johnson to
check Mr. Crowson. "As a registered nurse, Nurse
Johnson could not formally diagnose and treat Mr.
Crowson." App., Vol. I at 205. Rather, Nurse Johnson
assessed inmates and communicated with medical
staff. The medical staff available to diagnose were Jon
Worlton, a physician assistant ("PA"),4 and Dr.
LaRowe, the Jail's physician.
At all relevant times, PA Worlton was the Jail's
health services administrator and also handled
mental health care for the inmates. PA Worlton spent
half to three quarters of his time in clinical practice at
the Jail, primarily in booking. Dr. LaRowe was
responsible for diagnosing and treating inmates, but
4 There

is some ambiguity concerning whether Jon Worlton was,
in fact, a PA. The district court found he was a PA. At oral
argument, the County asserted that Mr. Worlton was a nurse
practitioner, not a PA, but suggested that accorded him similar
or greater medical training. In describing his education, Mr.
Worlton stated, "I'm a social worker. I have a master's degree in
social work. I also have a clinical license, licensed clinical social
worker." App., Vol. II at 478. At oral argument before this court,
however, counsel for Mr. Crowson answered affirmatively when
asked whether Mr. Worlton was a PA and whether he could
diagnose inmates. Where neither party has challenged the
district court's finding that Mr. Worlton was a PA, and Mr.
Crowson's counsel affirmed that professional status at oral
argument, we presume it is true for purposes of our analysis.

6a
he visited the Jail only one or two days a week, for two
to three hours at a time. Dr. LaRowe relied heavily on
the Jail's deputies and nurses. Jail deputies checked
on inmates who were in medical observation cells at
least once every thirty minutes, and the deputies
would notify a Jail nurse when an inmate was "not
acting right" or "having problems." App., Vol. I at 219
(quoting App., Vol. II at 504). "Jail nurses—who, by
law, could not diagnose inmates—generally spent five
to ten minutes with" inmates in medical observation
cells once every twelve-hour shift, "to take the
inmate's vital signs and conduct follow-up checks."
App., Vol. I at 219. If an inmate exhibited symptoms
of a cognitive problem, the nurse would inform Dr.
LaRowe and PA Worlton. There are no written
policies or procedures regarding inmate medical care
in the record.
When Nurse Johnson evaluated Mr. Crowson on
June 25, he noted Mr. Crowson had normal vital signs
and some memory loss. Specifically, "Mr. Crowson
was 'dazed and confused,' and 'unable to remember
what kind of work he did prior to being arrested.'"
App., Vol. I at 213 (quoting App., Vol. II at 374). Nurse
Johnson "admitted in his declaration that, despite
recording normal vital signs, he 'was concerned [Mr.
Crowson] may be suffering from some medical
problem.'" App., Vol. I at 213 (alteration in original)
(quoting App., Vol. II at 317). Nurse Johnson ordered
Mr. Crowson moved to a medical observation cell
following the examination. He also "entered a request
in the medical recordkeeping system for PA Worlton
to conduct a psychological evaluation." App., Vol. I at
205.
When Jail Deputy Fred Keil moved Mr. Crowson

7a
to a medical observation cell, he noticed that Mr.
Crowson appeared "unusually confused." App., Vol I
at 205. After conducting a visual body cavity search of
Mr. Crowson, Deputy Keil ordered Mr. Crowson to redress. Mr. Crowson put on his pants and then put his
underwear on over his pants.
Nurse Johnson checked Mr. Crowson again that
afternoon. "Mr. Crowson's pupils were dilated but
reactive to light" and "Mr. Crowson appeared alert
and oriented." App., Vol. I at 206. Nurse Johnson left
the Jail at the end of his shift on June 25 without
conducting further assessments of Mr. Crowson or
contacting Dr. LaRowe. PA Worlton never received
Nurse Johnson's file notation requesting a
psychological examination of Mr. Crowson.
Nurse Johnson did not work at the Jail on June 26
and 27. There is no documentation in the Jail's
medical recordkeeping system for these days to show
that medical personnel checked on Mr. Crowson.
On June 28, Nurse Johnson returned to work and
visited Mr. Crowson in the early afternoon. "Mr.
Crowson seemed confused and disoriented and had
elevated blood pressure. He gave one-word answers to
Nurse Johnson's questions, and understood, but could
not follow, an instruction to take a deep breath." App.,
Vol. I at 206. At this point, "Mr. Crowson's symptoms
had persisted beyond the expected timeframe for
substance withdrawal." App., Vol. I at 213.
Following the June 28 examination, Nurse
Johnson called Dr. LaRowe and informed him of some
of his observations. But Nurse Johnson did not tell Dr.
LaRowe that Mr. Crowson had been in a medical
observation cell for three days and had been in

8a
solitary confinement for nine days before that. Dr.
LaRowe ordered a chest x-ray and a blood test. "The
blood test, known as a complete blood count, could
have detected an acid-base imbalance in Mr.
Crowson's blood, a symptom of encephalopathy." App.,
Vol. I at 206.
Nurse Johnson attempted to draw Mr. Crowson's
blood, but he was unsuccessful due to scarring on Mr.
Crowson's veins and Mr. Crowson's unwillingness to
hold still. Nurse Johnson reported this unsuccessful
blood-draw attempt to Dr. LaRowe. Ultimately, the
chest x-ray and blood test were never completed. Dr.
LaRowe made no further attempts to diagnose Mr.
Crowson at that time.
On the morning of June 29, Nurse Johnson took
Mr. Crowson's vital signs and noted an elevated heart
rate. "Mr. Crowson was still acting dazed and
confused, and was experiencing delirium tremens, a
symptom of alcohol withdrawal." App., Vol. I at 20607. Nurse Johnson reported his observations to Dr.
LaRowe, who prescribed Librium and Ativan to treat
substance withdrawal. Dr. LaRowe directed Nurse
Johnson to administer a dose of Ativan.5
"An hour later, Nurse Johnson checked on Mr.
5 Mr.

Crowson's circumstances prior to his incarceration suggest
these medications may have been harmful to him beyond
worsening his encephalopathy. He was hospitalized at Dixie
Regional Medical Center "a few weeks before being arrested and
detained" at the Jail. App., Vol. I at 207. The amended complaint
indicates medical records from this hospitalization "'would have
revealed to Facility staff that [he] should not have been given any
drug categorized as a benzodiazepine' (such as Librium)." App.,
Vol. 1 at 207-08. That prior hospitalization appears to have been
the result of a heroin overdose.

9a
Crowson, who was sleeping, and noted that his vital
signs had returned to normal." App., Vol. I at 207. He
next checked on Mr. Crowson later that afternoon.
"He noted that Mr. Crowson was better able to
verbalize his thoughts and that his vital signs
remained stable." App., Vol. I at 207. But Mr. Crowson
continued to report memory loss, telling Nurse
Johnson that he could not remember the last five
days. Nurse Johnson, believing Mr. Crowson was
experiencing substance withdrawal, told Mr. Crowson
that he was in a medical observation cell, and he was
being given medication for his condition.
The following day (June 30), Nurse Ryan
Borrowman was assigned to the medical holding area.
Nurse Borrowman did not see Mr. Crowson until July
1, when he noted that Mr. Crowson's "physical
movements were delayed and that he struggled to
focus and would lose his train of thought." App., Vol. I
at 207. "[D]ue to the severity of [Mr. Crowson's]
symptoms and the length of time he had been in a
medical holding cell, [Nurse Borrowman] immediately
called Dr. LaRowe for further medical care." App., Vol.
II at 313. Upon Dr. LaRowe's order, Mr. Crowson was
transported to the Dixie Regional Medical Center,
where
he
was
diagnosed
with
metabolic
encephalopathy. Dr. LaRowe never visited the Jail
while Mr. Crowson was in the medical observation
cell.
"According to the amended complaint, Mr.
Crowson remained in the hospital until July 7, 2014,
and continued to suffer from 'residual effects of
encephalopathy, liver disease, and other problems.'"
App., Vol. I at 208 (quoting App., Vol. I at 39). Mr.
Crowson spent two months recovering at his mother's

10a
house, experiencing severe memory and focus
problems, before returning to the Jail on September 7,
2014.

B. Procedural History
Mr. Crowson filed a Complaint on December 15,
2015, which he amended on March 14, 2016. The
Amended Complaint brings, inter alia, § 1983 claims
against Nurse Johnson and Dr. LaRowe alleging they
were deliberately indifferent to Mr. Crowson's serious
medical needs in violation of Mr. Crowson's Eighth
and Fourteenth Amendment rights. The Amended
Complaint also includes § 1983 claims against
Washington County pursuant to Monell v. New York

City Department of Social Services, 436 U.S. 658, 98
S. Ct. 2018, 56 L. Ed. 2d 611 (1978).6

In 2018, Nurse Johnson, Dr. LaRowe, and
Washington County moved for summary judgment.
Nurse Johnson and Dr. LaRowe argued they were
entitled to qualified immunity. The County argued
that none of its employees committed a constitutional
violation and that there is no evidence of a County
policy or custom that caused the alleged constitutional
violation. On July 19, 2019, the district court denied
the motions in relevant part. The district court
concluded a reasonable jury could find Nurse Johnson
and Dr. LaRowe were deliberately indifferent to Mr.
Crowson's medical needs, and that it was clearly
established
their
conduct
amounted
to
a
constitutional violation. The district court also

6 These

are the only surviving claims and defendants. Other
parties and claims have been dismissed by various court orders
and party stipulations.

11a
concluded a reasonable jury could find the treatment
failures were an obvious consequence of the County's
reliance on Dr. LaRowe's infrequent visits to the Jail
and the County's lack of written protocols for
monitoring, diagnosing, and treating inmates. Nurse
Johnson, Dr. LaRowe, and Washington County filed
these consolidated interlocutory appeals.
II. DISCUSSION
We begin our analysis by examining the individual
defendants before turning to the County. Mr. Crowson
challenges our jurisdiction over this appeal, so each
discussion begins with the question of jurisdiction.

A. Individual Defendants
1. Jurisdiction
When examining the denial of summary judgment on
the issue of qualified immunity, "this court has
jurisdiction to review (1) whether the facts that the
district court ruled a reasonable jury could find would
suffice to show a legal violation, or (2) whether that
law was clearly established at the time of the alleged
violation." Roosevelt-Hennix v. Prickett, 717 F.3d 751,
753 (10th Cir. 2013) (internal quotation marks
omitted). Generally, we lack jurisdiction to review
factual disputes in this interlocutory posture. Lynch
v. Barrett, 703 F.3d 1153, 1159 (10th Cir. 2013) ("[I]f
a district court concludes a reasonable jury could find
certain specified facts in favor of the plaintiff, the
Supreme Court has indicated we usually must take
them as true—and do so even if our own de novo
review of the record might suggest otherwise as a
matter of law." (quotation marks omitted)).
There is an exception to this jurisdictional limitation
"when the 'version of events' the district court holds a

12a
reasonable jury could credit 'is blatantly contradicted
by the record.'" Lewis v. Tripp, 604 F.3d 1221, 122526 (10th Cir. 2010) (quoting Scott v. Harris, 550 U.S.
372, 380, 127 S. Ct. 1769, 167 L. Ed. 2d 686 (2007)).
In such circumstance, we assess the facts de novo. Id.
"A mere claim that the record 'blatantly' contradicts
the district court's factual recitation . . . does not
require us to look beyond the facts found and
inferences drawn by the district court. Rather, the
court's findings must constitute 'visible fiction.'"
Lynch, 703 F.3d at 1160 n.2 (quoting Scott, 550 U.S.
at 380-81). "The standard is a very difficult one to
satisfy." Cordero v. Froats, 613 F. App'x 768, 769 (10th
Cir. 2015) (unpublished).
Nurse Johnson and Dr. LaRowe argue this case is the
unusual one where we may review the facts de novo.
Because we find reversal is warranted taking the
district court's facts as true, we need not analyze
whether we would be permitted to consider the facts
de novo.
2. Merits Analysis
"The doctrine of qualified immunity shields officials
from civil liability so long as their conduct 'does not
violate clearly established statutory or constitutional
rights of which a reasonable person would have
known.'" Mullenix v. Luna, 577 U.S 7, 11, 136 S. Ct.
305, 193 L. Ed. 2d 255 (2015) (quoting Pearson v.

Callahan, 555 U.S. 223, 231, 129 S. Ct. 808, 172 L. Ed.
2d 565 (2009)). When a § 1983 defendant asserts
qualified immunity, this affirmative defense "creates
a presumption that [the defendant is] immune from
suit." Perea v. Baca, 817 F.3d 1198, 1202 (10th Cir.
2016). "To overcome this presumption," the plaintiff
"must show that (1) the officers' alleged conduct

13a
violated a constitutional right, and (2) it was clearly
established at the time of the violation, such that
'every reasonable official would have understood,' that
such conduct constituted a violation of that right." Id.
(quoting Mullenix, 577 U.S. at 11).
Mr. Crowson alleges Nurse Johnson and Dr. LaRowe
violated his Eighth and Fourteenth Amendment
rights. "The Fourteenth Amendment prohibits
deliberate indifference to a pretrial detainee's serious
medical needs." Strain v. Regalado, 977 F.3d 984, 987
(10th Cir. 2020). "[W]e apply the two-part Eighth
Amendment inquiry when a pretrial detainee alleges
deliberate indifference to serious medical needs."

Quintana v. Santa Fe Cnty. Bd. of Comm'rs, 973 F.3d
1022, 1028 (10th Cir. 2020). "This exercise requires
both an objective and a subjective inquiry." Id.7 "The
objective component is met if the deprivation is
'sufficiently serious.' . . . The subjective component is
met if a prison official 'knows of and disregards an
excessive risk to inmate health or safety.'" Sealock v.

Colorado, 218 F.3d 1205, 1209 (10th Cir. 2000)
(quoting Farmer v. Brennan, 511 U.S. 825, 834, 837,
114 S. Ct. 1970, 128 L. Ed. 2d 811 (1970)).

7 Mr.

Crowson argues the standard should be purely objective
under Kingsley v. Hendrickson, 576 U.S. 389, 135 S. Ct. 2466,
192 L. Ed. 2d 416 (2015). But during the pendency of this appeal,
a panel of this court held, in a published opinion, "deliberate
indifference to a pretrial detainee's serious medical needs
includes both an objective and a subjective component, even after
Kingsley." Strain v. Regalado, 977 F.3d 984, 989 (10th Cir. 2020).
We are bound by the holding in Strain. See Acosta v. Paragon
Contractors Corp., 957 F.3d 1156, 1162 (10th Cir. 2020).

14a
As for the requirement it be clearly established that
the conduct constituted a violation, "'the salient
question . . . is whether the state of the law' at the time
of an incident provided 'fair warning' to the
defendants 'that their alleged [conduct] was
unconstitutional.'" Tolan v. Cotton, 572 U.S. 650, 656,
134 S. Ct. 1861, 188 L. Ed. 2d 895 (2014) (alterations
in original) (quoting Hope v. Pelzer, 536 U.S. 730, 741,
122 S. Ct. 2508, 153 L. Ed. 2d 666 (2002)). "[F]or the
law to be clearly established, there must be a Supreme
Court or Tenth Circuit decision on point, or the clearly
established weight of authority from other courts
must have found the law to be as the plaintiff
maintains." Halley v. Huckaby, 902 F.3d 1136, 1149
(10th Cir. 2018) (quotation marks omitted). We may
not "define clearly established law at a high level of
generality." Mullenix, 577 U.S. at 12 (quoting

Ashcroft v. al-Kidd, 563 U.S. 731, 742, 131 S. Ct. 2074,
179 L. Ed. 2d 1149 (2011)). "Nevertheless, our

analysis is not a scavenger hunt for prior cases with
precisely the same facts, and a prior case need not be
exactly parallel to the conduct here for the officials to
have been on notice of clearly established law." Reavis

ex rel. Estate of Coale v. Frost, 967 F.3d 978, 992 (10th
Cir. 2020) (quotation marks omitted).
a. Nurse Johnson
We assume without deciding that the harm suffered
by Mr. Crowson meets the objective component of the
Eighth Amendment inquiry. Nurse Johnson argues he
was not deliberately indifferent under the subjective
component. We agree.
"Our cases recognize two types of conduct constituting
deliberate indifference. First, a medical professional
may fail to treat a serious medical condition properly";

15a
second, a prison official may "prevent an inmate from
receiving treatment or deny him access to medical
personnel capable of evaluating the need for
treatment." Sealock, 218 F.3d at 1211. Although
medical personnel often face liability for failure to
treat under the first type of deliberate indifference, if
"the medical professional knows that his role . . . is
solely to serve as a gatekeeper for other medical
personnel capable of treating the condition, . . . he also
may be liable for deliberate indifference from denying
access to medical care." Id. Mr. Crowson argues Nurse
Johnson's conduct falls within this second type of
deliberate indifference.
The district court agreed, finding Nurse Johnson was
deliberately indifferent on June 25 when he "placed
Mr. Crowson in an observation cell and left his shift
without ensuring that Mr. Crowson would receive
further care," and on June 28 when he "failed to tell
Dr. LaRowe that Mr. Crowson had already been in a
medical observation cell for three days and in solitary
confinement for nine days before that." App., Vol. I at
213. On appeal, Nurse Johnson argues the district
court erred in "infer[ring his] knowledge of an
excessive risk of inmate harm" and claims that by
referring Mr. Crowson to PA Worlton, he "fulfilled any
possible gatekeeper role." County Br. at 25, 28.
Regarding his June 28 visit to see Mr. Crowson, Nurse
Johnson argues "he fully fulfilled his 'gatekeeper' role
by simply communicating with Dr. LaRowe" and that
"the failure to pass on some information is in the form
of negligence and not 'deliberate indifference.'"
County Br. at 27, 29.
In response, Mr. Crowson claims Nurse Johnson's
June 25 attempted referral to PA Worlton for a

16a
psychological evaluation, without also referring him
to Dr. LaRowe for a physical evaluation, "prevent[ed
Mr. Crowson's] physical symptoms from being
evaluated and treated." Appellee Br. at 24. Mr.
Crowson also contends Nurse Johnson's admitted
concern that Mr. Crowson might be suffering from a
medical problem "indicate[s] that the risk of harm was
obvious and that [Nurse] Johnson was aware of the
risk on June 25." Id. at 25. Regarding the June 28
conduct, Mr. Crowson argues Nurse Johnson failed to
pass on "critical information" that Dr. LaRowe could
have used to rule out withdrawal as a possible
diagnosis. Id.
We address each instance of deliberately indifferent
conduct found by the district court.
i. The referral to PA Worlton for psychological
evaluation
We agree with the district court that the evidence
would allow a jury to conclude Nurse Johnson was
aware Mr. Crowson required medical attention. See
App., Vol. I at 213 ("Nurse Johnson himself noted that
Mr. Crowson was 'dazed and confused,' and 'unable to
remember what kind of work he did prior to being
arrested.' He admitted in his declaration that, despite
recording normal vital signs, he 'was concerned [Mr.
Crowson] may be suffering from some medical
problem.'" (alteration in original) (first quoting App.,
Vol. II at 374; then quoting App., Vol. II at 317)).
Nurse Johnson therefore knew Mr. Crowson had
potentially alarming symptoms and suspected there
was a medical issue. That knowledge was sufficient to
trigger Nurse Johnson's duty as a gatekeeper to
provide Mr. Crowson access to medical personnel who
could provide care.

17a
On June 25, Nurse Johnson assessed Mr. Crowson
and "entered a request in the medical recordkeeping
system for PA Worlton to conduct a psychological
evaluation." App. I at 205. Nurse Johnson then left the
Jail, without also contacting Dr. LaRowe. Upon Nurse
Johnson's return on June 28, he did contact Dr.
LaRowe about Mr. Crowson's symptoms.
Although the initial referral to PA Worlton was for a
psychological
examination,
rather
than
a
physiological one, that was consistent with Nurse
Johnson's belief Mr. Crowson was suffering from
psychological issues caused by the ingestion of illicit
drugs or alcohol. Further, nothing in the record or the
district court's opinion suggests PA Worlton—if
presented with clear signs of medical distress—would
have limited the examination of Mr. Crowson to
psychological issues. Indeed, as the health services
administrator for the Jail, PA Worlton could refer Mr.
Crowson to Dr. LaRowe as necessary. And, unlike Dr.
LaRowe, PA Worlton spent much of his time at the
Jail.
In his gatekeeping role, Nurse Johnson was required
to inform medical staff who could diagnose and treat
a pretrial detainee exhibiting concerning symptoms.
He attempted to do so by requesting a psychological
evaluation of Mr. Crowson, making notations in Mr.
Crowson's file, and having discussions with PA
Worlton about Mr. Crowson's condition.8

8 The

district court's statement that PA Worlton "never received
Nurse Johnson's request for a psychological examination," App.,
Vol. I at 206, does not take into account PA Worlton's deposition

18a
It is true that Nurse Johnson could have done more.
He could have ensured that the referral reached PA
Worlton, communicated the severity of Mr. Crowson's
condition, or contacted Dr. LaRowe immediately. But
Nurse Johnson did not "deny [Mr. Crowson] access to
medical personnel capable of evaluating the need for
treatment." Sealock, 218 F.3d at 1211. He left a
notation in Mr. Crowson's file regarding the referral
to PA Worlton, who, as the health services
administrator, was not bound by Nurse Johnson's
presumption that the examination should focus on
psychological issues.
Because Nurse Johnson did not "completely refuse[] to
fulfill [his] duty as gatekeeper," and instead, referred
the "prisoner to a physician assistant for medical
treatment," Mata v. Saiz, 427 F.3d 745, 758 (10th Cir.
2005), he was not deliberately indifferent to his
gatekeeper role. Id. Nurse Johnson's attempted
method of referral may have been negligent, but it was
not deliberately indifferent. See Farmer, 511 U.S. at
835 ("[D]eliberate indifference describes a state of
mind more blameworthy than negligence.").
ii. June 28 referral to Dr. LaRowe

testimony that Nurse Johnson told PA Worlton he was
"concerned that [Mr. Crowson] had gotten involved in some drugs
or homemade alcohol on the block or something and he asked me
to take a look at him," App., Vol. II at 482. On appeal, Mr.
Crowson does not ask us to ignore that testimony, but rather
argues it is irrelevant because it related to Mr. Crowson's mental
health rather than physical health, an argument we reject supra.
However, the electronic referral sufficed to fulfill Nurse
Johnson's duty, even if negligently made; accordingly, we need
not determine whether the district court's findings of fact were
blatantly contradicted by the record.

19a
Mr. Crowson next claims he had been in custody too
long still to be suffering from withdrawal related to
pre-incarceration drug use, and Nurse Johnson's
failure to inform Dr. LaRowe on June 28 of how long
Mr. Crowson had been in custody thus constitutes
deliberate indifference. Based on our decision in
Sealock, we disagree. There, the plaintiff was
incarcerated and experiencing numerous medical
symptoms. Sealock, 218 F.3d at 1208. After repeated
requests, he was moved to the infirmary where he told
the nurse "he had chest pain and couldn't breathe." Id.
The nurse informed the plaintiff "that he had the flu
and that there was nothing she could do for him until
the physician's assistant arrived at 8:00 a.m." Id.
Whether the nurse informed the PA that the plaintiff
was experiencing chest pains was a disputed fact—the
nurse testified she had, the PA testified she had not.
Id. at 1212. According to the PA, had he been informed
of the chest pains, he would have called an ambulance
to take the plaintiff to the emergency room. Id. at
1208. Instead the PA prescribed medication and the
plaintiff was not treated for his actual condition—a
heart attack—until the next day. Id. We affirmed the
district court's grant of summary judgment to the
nurse,
reasoning,
"[a]t
worst,"
the
nurse
"misdiagnosed" the inmate and failed to pass on
information to the PA about the inmate's chest pain.
Id. at 1211. Although the nurse omitted this critical
symptom, we concluded it did not demonstrate that
she behaved with deliberate indifference. See id.
The same is true here. On June 28, Nurse Johnson did
"alert Dr. LaRowe to Mr. Crowson's condition." App.,
Vol. I at 213. Via that telephone call, Nurse Johnson
fulfilled his gatekeeping role "by communicating the
inmate's symptoms to a higher-up." Burke v.

20a

Regalado, 935 F.3d 960, 993 (10th Cir. 2019). To be
sure, Nurse Johnson could have volunteered
information about the length of Mr. Crowson's
detention that might have assisted Dr. LaRowe in
reaching a diagnosis. As in Sealock, however, Nurse
Johnson did not act with deliberate indifference by
failing to do so. At worst, Nurse Johnson incorrectly
concluded Mr. Crowson was suffering withdrawal,
based on an assumption that Mr. Crowson had
obtained an illicit substance while incarcerated, and
Nurse Johnson then negligently failed to pass along
information concerning the length of Mr. Crowson's
incarceration.
***
In summary, Nurse Johnson did not violate Mr.
Crowson's Fourteenth Amendment rights on June 25
or June 28. The referral to PA Worlton fulfilled Nurse
Johnson's gatekeeping function by passing Mr.
Crowson to the health services administrator who was
capable of making a further referral. Likewise, Nurse
Johnson was not deliberately indifferent to Mr.
Crowson's medical needs on June 28, despite his
failure to notify Dr. LaRowe of the length of Mr.
Crowson's detention. We therefore reverse the district
court's denial of qualified immunity to Nurse Johnson.

b. Dr. LaRowe
Mr. Crowson contends that, by failing to obtain a
blood test, Dr. LaRowe exhibited deliberate
indifference to Mr. Crowson's serious medical
condition. For purposes of this analysis, we assume
without deciding that Mr. Crowson has satisfied the
first requirement to overcome a claim of qualified
immunity: violation of Mr. Crowson's constitutional

21a
right. We therefore proceed directly to the second
prong of the qualified immunity analysis: whether the
violation was clearly established.9 See Pearson, 555
U.S at 236 (holding courts are "permitted to exercise
their sound discretion in deciding which of the two
prongs of the qualified immunity analysis should be
addressed first in light of the circumstances in the
particular case at hand.").
The district court relied on our decision in Mata to
conclude it was clearly established that Dr. LaRowe's
failure to complete the blood test violated Mr.

9 Mr.

Crowson asserts that Dr. LaRowe is a private contractor
who is not entitled to assert a defense of qualified immunity
under Richardson v. McKnight, 521 U.S. 399, 117 S. Ct. 2100,
138 L. Ed. 2d 540 (1997). Although Mr. Crowson concedes he did
not raise this argument before the district court, he requests we
consider it as an argument for affirmance on alternate grounds.
Not only did Mr. Crowson fail to raise this argument before the
district court, his briefing on appeal treats it only perfunctorily.
The entirety of his legal argument relies on Richardson and
consists of one sentence: "[T]he Supreme Court has concluded
that similarly-situated 'private prison guards, unlike those who
work directly for the government, do not enjoy immunity from
suit in a § 1983 case.'" Appellee Br. at 38 (quoting Richardson,
521 U.S. at 412). Mr. Crowson's one-sentence argument not only
overlooks the limited nature of the Supreme Court's holding in
Richardson, but also does not address the rule outlined in
Richardson and reiterated in Filarsky v. Delia, 566 U.S. 377, 132
S. Ct. 1657, 182 L. Ed. 2d 662 (2012), for determining when a
private party may assert a qualified immunity defense. Mr.
Crowson also does not acknowledge that other circuits are split
on whether private health care providers hired by the state may
assert a qualified immunity defense. If we were to consider this
argument, the result would be deepening a circuit split without
the benefit of adequate adversarial briefing on the issue. We
therefore decline to reach this argument. See Elkins v. Comfort,
392 F.3d 1159, 1162 (10th Cir. 2004).

22a
Crowson's constitutional rights. In doing so, the
district court stated that "Dr. LaRowe 'did not simply
misdiagnose' Mr. Crowson, he 'refused to assess or
diagnose [his] condition at all' and simply assumed he
was experiencing substance withdrawals." App., Vol.
I at 216-17 (alteration in original) (quoting Mata, 427
F.3d at 758). Dr. LaRowe argues he "is entitled to
qualified immunity because no law characterized
misdiagnosis of an inmate's substance withdrawal as
a constitutional violation at the time he treated [Mr.]
Crowson." LaRowe Reply at 19.
In the district court's view, Dr. LaRowe failed to
assess or diagnose Mr. Crowson because Dr. LaRowe
did not ensure complete diagnostic testing before
prescribing medication for withdrawal. The district
court reasoned that Dr. LaRowe "did not misdiagnose
Mr. Crowson, but rather failed to conduct diagnostic
tests that would have informed him of Mr. Crowson's
medical needs" because, "despite vague and
nonspecific symptoms, he prescribed medication
based on his unverified suspicion that Mr. Crowson
was suffering from withdrawals." App., Vol. I at 215216. We do not reconsider the facts found by the
district court, but we are not bound by the district
court's conclusion that those facts amounted to a
failure to diagnose rather than a misdiagnosis as a
matter of law.
Although Dr. LaRowe failed to obtain complete
diagnostic testing, he ultimately prescribed
medication to treat withdrawal. Thus, Dr. LaRowe
apparently determined Mr. Crowson's symptoms were
caused by withdrawal, and prescribed medication to
treat that condition. Although Dr. LaRowe's diagnosis
would have been better informed by the blood test, we

23a
cannot conclude that Dr. LaRowe failed to make a
diagnosis at all.
The question presented, then, is whether it was
clearly established that reaching a diagnosis without
blood test results violated the plaintiff's rights where
the plaintiff's symptoms were consistent with either
withdrawal or encephalopathy. For law to be clearly
established, "[t]he precedent must be clear enough
that every reasonable official would interpret it to
establish the particular rule the plaintiff seeks to
apply." Brown v. Flowers, 974 F.3d 1178, 1184 (10th
Cir. 2020) (alteration in original) (quoting District of

Columbia v. Wesby, 138 S. Ct. 577, 590, 199 L. Ed. 2d
453 (2018)). "But even when such a precedent exists,

subsequent [controlling] cases may conflict with or
clarify the earlier precedent, rendering the law
unclear." Apodaca v. Raemisch, 864 F.3d 1071, 1076
(10th Cir. 2017). When "the question is within the
realm of reasonable debate," the law is not clearly
established. Id. at 1078.
The facts of this case fall between two lines of
precedent. On the one hand, "[a] medical decision not
to order an X-ray, or like measures, does not represent
cruel and unusual punishment[;] [a]t most it is
medical malpractice." Estelle v. Gamble, 429 U.S. 97,
107, 97 S. Ct. 285, 50 L. Ed. 2d 251 (1976). If he had
never ordered it, then, Dr. LaRowe's failure to obtain
a blood test would be at most medical malpractice. See
id. Similarly, if Dr. LaRowe had treated Mr. Crowson
for withdrawal based on vague, nonspecific symptoms,
that alone would not be enough to prove deliberate
indifference. See Self v. Crum, 439 F.3d 1227, 1234
(10th Cir. 2006) ("Where a doctor faces symptoms that
could suggest either indigestion or stomach cancer,

24a
and the doctor mistakenly treats indigestion, the
doctor's culpable state of mind [i.e., deliberate
indifference] is not established even if the doctor's
medical judgment may have been objectively
unreasonable.").
On the other hand, in Mata we concluded that a nurse
who did a physical exam and performed an EKG that
produced normal results before sending an inmate
away was not deliberately indifferent because she
"made a good faith effort to diagnose and treat" the
inmate. Mata, 427 F.3d at 760-61. Mata establishes
that a medical professional faced with symptoms of a
serious medical condition must make some effort to
assess and treat the patient. See Quintana, 973 F.3d
at 1033 ("[I]t [is] clearly established that when a
detainee has obvious and serious medical needs,
ignoring those needs necessarily violates the
detainee's constitutional rights."). But Mata does not
require a medical professional to perform any
diagnostic testing, let alone any specific diagnostic
testing, to avoid liability.
Here, Dr. LaRowe ordered diagnostic testing, was
informed the testing could not be completed, and did
not make further attempts to test. Instead, he began
treatment for what he deemed the likely cause of Mr.
Crowson's symptoms. Even where the blood test
would have provided information that could have
better informed the diagnosis, the parties do not cite,
and we have not found, any decision from the
Supreme Court or this court that would have put Dr.
LaRowe on notice that his conduct violated Mr.
Crowson's Fourteenth Amendment rights.
Mr. Crowson points to our decision in Mata and
asserts that an official can be liable if he "declined to

25a
confirm inferences of risk that he strongly suspected
to exist." Mata, 427 F.3d at 752 (quoting Farmer, 511
U.S. at 843 n.8). But there is nothing that suggests
Dr. LaRowe strongly suspected Mr. Crowson was
suffering from encephalopathy. To the contrary, Dr.
LaRowe suspected Mr. Crowson was suffering from
withdrawal, as is indicated by the medication he
prescribed. And, like the inmate in Estelle, Mr.
Crowson's symptoms were consistent with either
diagnosis.
To conclude Mata put all reasonable doctors on notice
that failing to obtain a test result violates an inmate's
rights would place the notice at too high a level of
generality. As discussed, Mata does not require
testing and, consequently, Dr. LaRowe's conduct falls
into a grey area created by the holdings of Estelle and
Self on the one hand and Mata on the other. We
therefore cannot conclude that every reasonable
official would have known it was a violation of Mr.
Crowson's constitutional rights to proceed with a
diagnosis in the absence of blood test results. Rather,
it fell within the realm of reasonable debate. See
Apodaca, 864 F.3d at 1078.
***
For purposes of our analysis, we assume Dr. LaRowe
violated Mr. Crowson's Fourteenth Amendment
rights by treating him for withdrawal without first
obtaining the results from a previously ordered blood
test. Because we have found no decisions from the
Supreme Court or this court that clearly establish the
unconstitutionality of such conduct, we conclude Dr.
LaRowe is entitled to qualified immunity, and we
reverse the district court's denial of summary
judgment.

26a

B. Institutional Defendant
Mr. Crowson also claims the County is liable because
it "failed to enact adequate policies and properly train
its nurses despite relying on the nurses to provide the
bulk of medical care." Appellee Br. at 49. To state a
claim against a municipal entity in this context,
"plaintiffs must allege facts showing: (1) an official
policy or custom, (2) causation, and (3) deliberate
indifference." Quintana, 973 F.3d at 1034. Under our
precedent, any of the following constitute an official
policy:
(1) a formal regulation or policy statement; (2)
an informal custom amounting to a widespread
practice that, although not authorized by
written law or express municipal policy, is so
permanent and well settled as to constitute a
custom or usage with the force of law; (3) the
decisions of employees with final policymaking
authority; (4) the ratification by such final
policymakers of the decisions—and the basis
for them—of subordinates to whom authority
was delegated subject to these policymakers'
review and approval; or (5) the failure to
adequately train or supervise employees, so
long as that failure results from deliberate
indifference to the injuries that may be caused.

Waller v. City & County of Denver, 932 F.3d 1277,
1283 (10th Cir. 2019) (quotation marks omitted).
Mr. Crowson argued to the district court that the
County was "deliberately indifferent to the risk of
having nurses who were not trained and did not have
policies to follow." App., Vol. I at 137. The district
court treated this issue as encompassing both a

27a
failure-to-train claim and a systemic-failure claim:
"Mr. Crowson alleges that Washington County is
liable for its failure to train Jail nurses—specifically,
for its failure to promulgate written policies for Jail
nurses to follow," and cited the proper standard for
failure to train. App., Vol. I at 218. The district court
found that the "County's healthcare policies at the
time of Mr. Crowson's incarceration seem severely
lacking." App., Vol. I at 218. It further noted that
there were "no written policies in the record," and that
the Jail's general practices for providing medical care
to inmates had to be pieced together from the
deposition testimony of various medical personnel.
App., Vol. I at 218-19. The district court also
considered Jail policy that required Dr. LaRowe to
rely heavily on the Jail's deputies and nurses because
although he "was responsible for diagnosing and
treating inmates, [he] only visited the Jail one or two
day[s] a week." App., Vol. I at 219. These deficiencies
were compounded by the practices at the Jail. The
district court observed:
When an inmate was placed in a medical
observation cell, Jail deputies observed inmates
at least once every thirty minutes, and would
notify a Jail nurse when "this guy is not acting
right or this guy is having problems." (Dep. of
Michael Johnson at 32:4-10 (ECF No. 76-7).)
Jail nurses—who, by law, could not diagnose
inmates—generally spent five to ten minutes
with the inmate once every twelve-hour shift, to
take the inmate's vital signs and conduct
follow-up checks. If an inmate exhibited
symptoms of a cognitive problem (as did Mr.
Crowson), the nurse would inform Dr. LaRowe
and PA Worlton, who, in addition to his role as

28a
the Jail's health services
handles mental health care.

administrator,

App., Vol. I at 219.
The district court found that the Jail's practices left
the nurses "largely to their own devices." App., Vol. I
at 219. This was particularly true as to brain injuries
because the "Jail has no guidelines or written policies"
for assessing them. App., Vol. I at 219. While Dr.
LaRowe did provide training for alcohol withdrawal,
Nurse Johnson "could not remember a protocol or
standards for assessing withdrawal symptoms," and
PA Worlton testified the Jail did not have a written
policy governing placement of inmates in observation
cells for detox or evaluation of the inmate thereafter.
App., Vol. I at 219. The district court also found it
significant that Dr. LaRowe was unaware of any Jail
policy for nurses to follow in determining when an
inmate should be transported to the hospital. App.,
Vol. I at 219. From this evidence, the district court
found: "Remarkably, it appears from the record that
Washington County failed to promulgate written
policies pertaining to the Jail's core healthcare
functions." App., Vol. I at 220. And it further
concluded that a reasonable jury could find that Mr.
Crowson's injuries were "an obvious consequence of
the County's reliance on a largely absentee physician,
and an attendant failure to promulgate written
protocols for monitoring, diagnosing, and treating
inmates." App., Vol. I at 220. The district court,
therefore, considered the problems created both by the
failure to train and by the failure to adopt written
policies.
Before we reach the merits of Mr. Crowson's claims
against the County, we must determine whether we

29a
have jurisdiction to consider those claims in this
interlocutory appeal. We have discretion to exercise
pendent appellate jurisdiction over the County's
appeal to the extent the issues it raises are
"inextricably intertwined" with the district court's
denial of qualified immunity to the individual
defendants. See Moore, 57 F.3d at 930 (quoting Swint

v. Chambers Cnty. Comm'n, 514 U.S. 35, 51, 115 S.
Ct. 1203, 131 L. Ed. 2d 60 (1995)). If resolution of the
collateral qualified immunity appeal "necessarily
resolves" the County's issues on appeal, then those
otherwise nonappealable issues are "inextricably
intertwined" with the appealable decision. Id. But "if
our ruling on the merits of the collateral qualified
immunity appeal [would] not resolve all of the
remaining issues presented by the [County]," then we
lack jurisdiction to consider the County's appeal. Id.
To place the analysis of our jurisdiction over the
claims against the County in context, we pause to set
forth the relevant legal background.
1. Legal Background
Mr. Crowson asserts two related claims against the
County: (1) failure to train its nurses; and (2) reliance
on policies and procedures that were deliberately
indifferent to prisoners' medical needs. Only the first
of these claims is inextricably intertwined with the
claims of the individual defendants, as we shall now
explain.
In Garcia v. Salt Lake County, 768 F.2d 303 (10th Cir.
1985), we addressed a claim for deliberate indifference
against a municipality under circumstances like the
present. There, the family of a pretrial detainee who
died while housed in the Salt Lake County Jail sued

30a
various officials and the county. Id. at 305. According
to the plaintiffs, the detainee's death was the result of
official policies and practices of the county that were
deliberately indifferent to the serious medical needs
of persons confined in the Salt Lake County Jail. Id. A
panel of this court allowed the jury verdict against the
county to stand despite the absence of individual
liability as to any county employee. Id. The panel
concluded that where the county's policy, or lack of
policies, evinces deliberate indifference, the county
can be liable even in the absence of individual liability
by any county actor. See id. at 306-07. We
explained: "Deliberate indifference to serious medical
needs may be shown by proving there are such gross
deficiencies in staffing, facilities, equipment, or
procedures that the inmate is effectively denied access
to adequate medical care." Id. at 308. And even where
"the acts or omissions of no one employee may violate
an individual's constitutional rights, the combined
acts or omissions of several employees acting under a
governmental policy or custom may violate an
individual's constitutional rights." Id. at 310.
There is some tension in our subsequent caselaw with
respect to this conclusion in Garcia. In multiple cases
we have made statements that suggest a claim
against a municipality may never lie where none of
the municipality's individual officers are liable under
§ 1983. When examined more carefully, however, most
of these decisions can be harmonized with the
Supreme Court's and our prior decisions.
Demarcating the precise dividing line in our
precedent, moreover, demonstrates why our
jurisdiction in this posture extends to only one of Mr.
Crowson's theories of municipal liability.

31a
To frame our prior decisions, it is important to begin
with the Supreme Court's direction in Collins v. City
of Harker Heights that "proper analysis requires us to
separate two different issues when a § 1983 claim is
asserted against a municipality: (1) whether
plaintiff's harm was caused by a constitutional
violation, and (2) if so, whether the city is responsible
for that violation." 503 U.S. 115, 120, 112 S. Ct. 1061,
117 L. Ed. 2d 261 (1992). The absence of an
affirmative answer to either of these questions is fatal
to a claim against the municipality.
With respect to the first question, a claim under §
1983 against either an individual actor or a
municipality cannot survive a determination that
there has been no constitutional violation. Id. at 130
(affirming dismissal of action where none of plaintiff's
allegations set forth a constitutional violation). In

Washington v. Unified Government of Wyandotte
County, for example, we acknowledged that "a
municipality may be liable under § 1983 where the

plaintiff identifies an unconstitutional policy that
caused the claimed injury." 847 F.3d 1192, 1197 (10th
Cir. 2017). However, once we concluded the plaintiff
had failed to show any constitutional violation, we
affirmed the district court's decision rejecting the
claims against all defendants, including the county.
Id. at 1197-1203; see also Lindsey v. Hyler, 918 F.3d
1109, 1116-17 (10th Cir. 2019) (rejecting plaintiffs'
failure-to-train claim against municipality upon
concluding there was no constitutional violation);

Jennings v. City of Stillwater, 383 F.3d 1199, 1205 n.1
(10th Cir. 2004) (rejecting claims against city after

affirming summary judgment for individual actors
due to the lack of any constitutional violation); Livsey

v. Salt Lake County, 275 F.3d 952, 958 (10th Cir.

32a

2001) (rejecting claims against county because the
individual officer had not violated constitutional right
to privacy or substantive due process of surviving wife
and children); Trigalet v. City of Tulsa, 239 F.3d 1150,
1152, 1154-55 (10th Cir. 2001) (rejecting claims
against county for failure to train and failure to adopt
appropriate policies where individual officers had not
violated the constitutional rights of driver killed by
suspect fleeing police).
We turn next to the second question identified in
Collins: whether the municipality is responsible for
the constitutional violation. Sometimes the
municipality's failures are the driving force behind a
constitutional violation by a specific municipal
employee. A failure-to-train claim is an example of
these types of § 1983 claims against municipalities.
In Williams v. City & County of Denver, we
"emphasize[d] the distinction between cases in which
a plaintiff seeks to hold a municipality liable for
failing to train an employee who as a result acts
unconstitutionally, and cases in which the city's
failure is itself an unconstitutional denial of
substantive due process." 99 F.3d 1009, 1019 (10th
Cir. 1996), reh'g en banc granted on other grounds,
opinion vacated, 140 F.3d 855 (10th Cir. 1997), reh'g

en banc sub nom. Williams v. Denver, 153 F.3d 730
(10th Cir. 1998) (unpublished).10 We explained that a

the opinion in Williams was vacated, it was not
reversed by the en banc court. See 153 F.3d 730 (10th Cir. 1998)
(unpublished). Thus, its expressions on the merits may have at
least persuasive value. See Los Angeles County v. Davis, 440
10 Although

33a
city may not be held liable for failure to train "when
there has been no underlying constitutional violation
by one of its employees." 99 F.3d at 1018. By contrast,
where the claim is premised upon a formally
promulgated policy, well-settled custom or practice, or
final decision by a policymaker, we held "the inquiry
is whether the policy or custom itself is
unconstitutional so as to impose liability on the city
for its own unconstitutional conduct in implementing
an unconstitutional policy." Id.
Although Williams has a complex subsequent history,
nothing in that history casts doubt on the
determination that a failure-to-train claim may not be
maintained without a showing of a constitutional
violation by the allegedly un-, under-, or improperlytrained officer. See 99 F.3d at 1018; see also Myers v.

Okla. Cnty. Bd. of Cnty. Comm'rs, 151 F.3d 1313,
1317 (10th Cir. 1998) (stating that "failure[-]to[-]train

claims . . . require[] a predicate showing that the
officers did in fact" violate the decedent's rights).
Thus, under Williams, our conclusion that the claim
against Nurse Johnson fails on summary judgment
U.S. 625, 646 n.10, 99 S. Ct. 1379, 59 L. Ed. 2d 642 (1979)
(Powell, J., dissenting) (explaining, in regard to a Ninth Circuit
judgment vacated by the Supreme Court, that "the expressions
of the court below on the merits, if not reversed, will continue to
have precedential weight and, until contrary authority is
decided, are likely to be viewed as persuasive authority if not the
governing law of the Ninth Circuit"); cf. Rio Grande Silvery

Minnow v. Bureau of Reclamation, 601 F.3d 1096, 1133 (10th
Cir. 2010) (explaining that "since the district court's opinion[s]

will remain 'on the books' even if vacated, albeit without any
preclusive effect, future courts [and litigants] will be able to
consult [their] reasoning" (alterations in original) (quoting Nat'l

Black Police Ass'n v. District of Columbia, 108 F.3d 346, 354, 323
U.S. App. D.C. 292 (D.C. Cir. 1997))).

34a
necessarily also defeats the failure-to-train claim
against the County, which is premised only upon the
County's failure to train its nurses.
Where the claim against the municipality is not
dependent upon the liability of any individual actor,
however, our precedent is less clear. Recall that in
Garcia, we held: "Deliberate indifference to serious
medical needs may be shown by proving there are
such gross deficiencies in staffing, facilities,
equipment, or procedures that the inmate is
effectively denied access to adequate medical care."
768 F.2d at 308. More recently, however, we reached
a contrary conclusion. See Martinez v. Beggs, 563 F.3d
1082 (10th Cir. 2009).
In Martinez, an estate brought § 1983 claims against
individual jailers and against the Sheriff acting in his
official capacity for the county after a man died in
police custody. Id. at 1084. The decedent's estate
alleged the individual defendants were deliberately
indifferent to the decedent's serious medical needs,
resulting in a violation of his constitutional rights. Id.
We affirmed the district court's summary judgment in
favor of the individual defendants because there was
no evidence they had subjective knowledge of the
decedent's serious medical condition. Id. at 1090-91.
And therefore, we held the Sheriff acting in his official
capacity could not be "liable for the actions of the
officers he trained and supervised" in the absence of a
constitutional violation by any of his officers. Id. at
1091.
So far, then, Martinez tracks our precedent. But next,
the panel considered the estate's claim that even "if no
single individual county employee is found liable, the
county may still be liable for a 'systemic injury' caused

35a
by 'the interactive behavior of several government
officials, each of whom may be acting in good faith.'"
Id. at 1092. We rejected that claim, stating, "[t]o the
extent this argument suggests that the county can be
liable, even if no individual government actor is liable,
it is precluded by our prior precedent." Id.
In support, we cited Olsen v. Layton Hills Mall, 312
F.3d 1304 (10th Cir. 2002). Although Olsen did
acknowledge that municipalities could not be held
liable absent an underlying violation by their officers,
id. at 1317-18, the claim asserted in that case was for
failure to train rather than for a systemic lack of
policies and procedures. Compare Garcia, 768 F.2d at
310. And in Olsen, we ultimately reversed the grant
of summary judgment for the officer while affirming
the grant of summary judgment for the city on a
wholly different ground—that the plaintiff had not
produced evidence of deliberate indifference on the
city's part. 312 F.3d at 1312-13, 1317-19.
In Martinez, however, we went beyond Olsen in
holding that a § 1983 deliberate indifference claim
against a municipality based on systemic failures
cannot survive in the absence of a constitutional
violation by at least one individual defendant. 563
F.3d at 1092. That holding does not turn on whether
the injury was caused by a constitutional violation for
which the municipality was responsible, as mandated
by Collins. See 503 U.S. at 120. Instead, it directs that
no claim against the municipality can prevail in the
absence of a liable individual.
We are unable to reconcile the holdings in Martinez
and Garcia. However, Garcia is the earlier published
decision, and "when faced with an intra-circuit
conflict, a panel should follow earlier, settled

36a
precedent over a subsequent deviation therefrom."

Haynes v. Williams, 88 F.3d 898, 900 n.4 (10th Cir.
1996). This rule does not hold if our earlier precedent
has been reconsidered. See id. But we have not
overruled Garcia; to the contrary, we have relied on it
recently. See Quintana, 973 F.3d at 1033-34
(marshaling Garcia to reject the district court's
conclusion that a § 1983 claim premised on deficient
medical intake protocol could not lie absent "a viable
claim against an individual defendant," because it
"does not square with circuit precedent holding that
municipal liability under Monell may exist without
individual liability"). Furthermore, we are not the
only circuit to cite Garcia recently in the context of
this theory of municipal liability. See Griffith v.

Franklin County, 975 F.3d 554, 581-82 (6th Cir. 2020)
(expressing willingness to entertain Garcia's theory of
municipal liability, but declining to decide the issue
because plaintiff failed to establish a constitutional
violation); Barnett v. MacArthur, 956 F.3d 1291,
1301-02 (11th Cir. 2020) (allowing § 1983 claim
against county to proceed despite a jury finding that
the individual officer did not violate the plaintiff's
constitutional rights, while determining Garcia's
theory of municipal liability to be "not a controversial
concept"), petition for cert. filed sub nom Lemma v.
Barnett, No. 20-595; Horton by Horton v. City of

Santa Maria, 915 F.3d 592, 604 & n.11 (9th Cir. 2019)

(holding that city could be liable for deliberate
indifference to safety of pretrial detainee even where
no individual officer had violated a clearly established
constitutional right).
We are also unconvinced that subsequent
pronouncements from the Supreme Court permit us to
depart from our published decision in Garcia. See

37a

Haynes, 88 F.3d at 900 n.4. We decided Garcia in
1985. The following year, the Supreme Court held
that "[i]f a person has suffered no constitutional injury
at the hands of the individual police officer, the fact
that the departmental regulations might have
authorized the use of constitutionally excessive force
is quite beside the point." City of Los Angeles v.

Heller, 475 U.S. 796, 799, 106 S. Ct. 1571, 89 L. Ed.
2d 806 (1986). But in City of Los Angeles v. Heller, the
issue was whether damages could be awarded
"against a municipal corporation based on the actions
of one of its officers when in fact the jury has
concluded that the officer inflicted no constitutional
harm." Id.

The subsequent development of our municipal
liability caselaw confirms that Heller did not
undermine Garcia. In Apodaca v. Rio Arriba County
Sheriff's Department, we cited Heller in holding,
"[w]hen there is no underlying constitutional violation
by a county officer, there cannot be an action for
failing to train or supervise the officer." 905 F.2d 1445,
1447 (10th Cir. 1990) (emphasis added). Three years
later, we stated this rule more broadly: "A
municipality may not be held liable where there was
no underlying constitutional violation by any of its
officers." Hinton v. City of Elwood, 997 F.2d 774, 782
(10th Cir. 1993) (citing Heller, 475 U.S. at 799). But
again, we made this statement in the context of the
city's failure to train "regarding, or to adopt any
written policies regulating, the use of force." Id. at
777. Relying on Heller, we explained that "where a
municipality is 'sued only because [it was] thought
legally responsible' for the actions of its officers, it is
'inconceivable' to hold the municipality liable if its
officers inflict no constitutional harm, regardless of

38a
whether the municipality's policies might have
'authorized' such harm." Id. at 782 (alteration in
original) (quoting Heller, 475 U.S. at 799). "As in
Heller, Hinton's excessive force claim against the City
of Elwood seeks to hold the city liable solely because
of the actions of its individual officers." Id.
As previously discussed, in Collins the Supreme Court
recognized a type of § 1983 claim against a
municipality that may survive even in the absence of
a constitutional violation by a municipal employee.
See 503 U.S. 115, 112 S. Ct. 1061, 117 L. Ed. 2d 261 .
There, the widow of a municipal employee who died
after entering a manhole to service a sewer line, sued
the city, claiming the decedent "had a constitutional
right to be free from unreasonable risks of harm to his
body, mind and emotions and a constitutional right to
be protected from the city of Harker Heights' custom
and policy of deliberate indifference toward the safety
of its employees." Id. at 117. The widow's
constitutional claim was based on "the substantive
component of the [Due Process] Clause that protects
individual liberty against 'certain government actions
regardless of the fairness of the procedures used to
implement them.'" Id. at 125 (quoting Daniels v.

Williams, 474 U.S. 327, 331, 106 S. Ct. 662, 88 L. Ed.
2d 662 (1986)). The Court noted this claim fairly
advanced two theories: "that the Federal Constitution
imposes a duty on the city to provide its employees
with minimal levels of safety and security in the
workplace, or that the city's 'deliberate indifference' to
[the decedent's] safety was arbitrary government
action that must 'shock the conscience' of federal
judges." Id. at 126. After rejecting the first theory as
inconsistent with substantive due process precedent,
the Court rejected the widow's second theory because

39a
her claim was "analogous to a fairly typical state-law
tort claim," id. at 126-128. As such, it did not meet the
requirement of arbitrary government action that
shocks the conscience. Id. Importantly, the analysis in
Collins was not driven by the absence of a finding of
liability with respect to any individual city employee.
We dissected the meaning of Collins for § 1983
municipal liability in Williams. See 99 F.3d 1009.
There, an estate sued the City and County of Denver
for the death of a motorist as a result of a collision
with a police officer who sped through an intersection
against the light and without using a siren. Id. at
1012. The estate brought a failure-to-train claim, as
well as a substantive due process claim based solely
on the city's own actions. Id. at 1018. "In light of
Collins," a panel of this court held a municipality "may
be liable for its own unconstitutional policy even if
[the individual defendant] is ultimately exonerated,"
by drawing a "distinction between cases in which a
plaintiff seeks to hold a municipality liable for failing
to train an employee who as a result acts
unconstitutionally, and cases in which the city's
failure is itself an unconstitutional denial of
substantive due process." Id. at 1019. We further held
the standard for a substantive due process violation is
whether the conduct was conscience-shocking; mere
recklessness is insufficient. Id. at 1015.
The en banc court granted the municipal defendants'
petition for rehearing to address: (1) the proper
standard for determining whether the conduct of the
officer violated the decedent's constitutional rights,
(2) whether under that standard the constitutional
determination should be made by a judge or a jury,
and (3) whether the municipality could be found liable

40a
"by its own conduct or policies in hiring and/or failing
to train [the officer], even if the officer's conduct did
not violate the constitutional rights of decedent."

Williams v. City & County of Denver, 140 F.3d 855,
855 (10th Cir. 1997).

The rehearing in Williams was subsequently abated
pending the Supreme Court's decision in County of

Sacramento v. Lewis, 523 U.S. 833, 118 S. Ct. 1708,
140 L. Ed. 2d 1043 (1998), which directly considered

whether the substantive due process analysis in
Williams was correct. Id. at 839-840 (citing Williams
as part of the circuit split the case was accepted on
certiorari to resolve). In Lewis, the Court explained it
had "always been reluctant to expand the concept of
substantive due process." Id. at 842 (quoting Collins,
503 U.S. at 125). Thus, "[w]here a particular
Amendment provides an explicit textual source of
constitutional protection against a particular sort of
government behavior, that Amendment, not the more
generalized notion of substantive due process, must be
the guide for analyzing these claims." Id. (alteration
in original) (quoting Albright v. Oliver, 510 U.S. 266,
273, 114 S. Ct. 807, 127 L. Ed. 2d 114 (1994) (plurality
opinion)). Where such explicit protection is not
provided by another amendment, however, "the
substantive component of the Due Process Clause is
violated by executive action only when it 'can properly
be characterized as arbitrary, or conscience shocking,
in a constitutional sense.'" Id. at 847 (quoting Collins,
503 U.S. at 128). Thus, the Court's decision in Lewis
is consistent with the substantive due process
standard we applied in Williams. Id. at 839-40
(reversing a decision on the other side of a circuit split
from Williams).

41a
While the Williams rehearing was pending, the
Supreme Court also decided Board of County

Commissioners of Bryan County v. Brown, 520 U.S.
397, 117 S. Ct. 1382, 137 L. Ed. 2d 626 (1997). There,
the Court ruled that to hold a municipality liable
under § 1983, "a plaintiff must show that the
municipal action was taken with the requisite degree
of culpability and must demonstrate a direct causal
link between the municipal action and the deprivation
of federal rights." Id. at 404. In response to these
intervening Supreme Court decisions, we vacated the
district court's judgment in Williams and remanded
for the district court to consider their effect. Williams

v. Denver, 153 F.3d 730, 1998 WL 380518, at *1 (10th
Cir. 1998) (unpublished).

We returned to the relevant question in Trigalet v.
City of Tulsa. See 239 F.3d 1150. There, "we
consider[ed] whether a municipality can be held liable
for the actions of its employees if those actions do not
constitute a violation of a plaintiff's constitutional
rights." Id. at 1154. We held "even if it could be said
that Tulsa's policies, training, and supervision were
unconstitutional, the City cannot be held liable where,
as here, the officers did not commit a constitutional
violation." Id. at 1155-56.
Under Trigalet, there is no question that where the
actions of a municipality's officers do not rise to the
level of a constitutional violation and the claim
against the municipality is based on it serving as the
driving force behind those actions, liability cannot lie.
But the question here, and in Garcia, is different:
whether, even where no individual action by a single
officer rises to a constitutional violation, a
municipality may be held liable where the sum of

42a
actions
nonetheless
violates
the
plaintiff's
constitutional rights. Garcia answers that question in
the affirmative. And the Supreme Court's subsequent
decision in Heller does not cast doubt on Garcia; in
Heller the theory of municipality liability was
predicated on the actions of one officer who was
determined not to have violated the plaintiff's
constitutional rights.
Because Garcia is not undermined by a subsequent
Supreme Court decision, and it also predates
Martinez, Garcia is controlling here. See Haynes, 88
F.3d at 900 n.4.
Moreover, assuming the expansion of the Collins
analysis outside the substantive due process context
is appropriate, the reasoning of Garcia remains
sound. A core principle of Monell liability is that
municipal entities are liable for only their own actions
and not vicariously liable for the actions of their
employees. See Schneider v. City of Grand Junction
Police Dep't, 717 F.3d 760, 770 (10th Cir. 2013).
Because municipalities act through officers,
ordinarily there will be a municipal violation only
where an individual officer commits a constitutional
violation. But, as in Garcia, sometimes the municipal
policy devolves responsibility across multiple officers.
In those situations, the policies may be
unconstitutional precisely because they fail to ensure
that any single officer is positioned to prevent the
constitutional violation. Where the sum of multiple
officers' actions taken pursuant to municipal policy
results in a constitutional violation, the municipality
may be directly liable. That is, the municipality may
not escape liability by acting through twenty hands
rather than two.

43a
The general rule in Trigalet is that there must be a
constitutional violation, not just an unconstitutional
policy, for a municipality to be held liable. In most
cases, this makes the question of whether a
municipality is liable dependent on whether a specific
municipal
officer
violated
an
individual's
constitutional rights. But Garcia remains as a limited
exception where the alleged violation occurred as a
result of multiple officials' actions or inactions.
With this legal background in place, we now proceed
to the question of whether our resolution of the claims
against the individual defendants forecloses the
County's liability. We conclude that it does with
respect to the failure-to-train claim, but not as to the
theory based on a systemic failure of medical policies
and procedures. Accordingly, we reverse the district
court's denial of summary judgment to the County on
the failure-to-train claim, but we lack jurisdiction over
the claim against the County based on its allegedly
deficient policies and procedures.
2. Dr. LaRowe
Recall that we did not decide whether Dr. LaRowe
violated Mr. Crowson's constitutional rights, instead
concluding that even if we assume a violation, the
right was not clearly established. Leaving the
question of a constitutional violation by Dr. LaRowe
unresolved does not impact our jurisdiction over the
claims against the County on interlocutory appeal
because Mr. Crowson's failure-to-train claim respects
only the nurses employed at the Jail. Mr. Crowson
does not allege the County failed to train Dr. LaRowe.
And to the extent Mr. Crowson argues the County's
policies constituted deliberate indifference to his
rights, that claim does not depend upon an individual

44a
employee (or contractor, in Dr. LaRowe's case) having
independently violated his rights. Accordingly,
neither of the two claims against the County are
inextricably intertwined with the claim against Dr.
LaRowe.
3. Nurse Johnson
We have concluded Nurse Johnson did not violate Mr.
Crowson's constitutional rights. As a result, we have
pendent appellate jurisdiction only if we also conclude
Mr. Crowson's claims against the County are
dependent upon Nurse Johnson violating his
constitutional rights.11Id. Put another way, if Mr.
Crowson's claims against the County can succeed
despite our holding that Nurse Johnson did not violate
his rights, we lack jurisdiction over those claims. See

id.

The County contends that to succeed on his municipal
liability claims, Mr. Crowson must "show an
underlying constitutional violation by at least one
Washington County employee and that the
underlying constitutional violation was directly
caused by a county policy." County Br. at 48. But as
previously explained, we agree with Mr. Crowson that
even if we conclude Nurse Johnson and Dr. LaRowe
"did not violate the Constitution individually, . . . their
combined acts may be sufficient for Monell liability"
such that Mr. Crowson still has a claim for municipal
liability irrespective of whether Nurse Johnson
violated his rights. Appellee Br. at 48. In a similar

11 We

lack jurisdiction to consider the County's attacks on the
other elements of either Monell claim. See Moore v. City of
Wynnewood, 57 F.3d 924, 930 (10th Cir. 1995).

45a
vein, Mr. Crowson argues the claims against the
County "depend[] on the actions of policymakers" and
their alleged "systemic failures" which are distinct
"from the claims against the individual defendants."
Appellee Br. at 48-49.
Mr. Crowson does assert a failure-to-train claim that,
for the reasons discussed above, is dependent upon a
predicate violation by Nurse Johnson. This claim is
therefore inextricably intertwined with our decision
that Nurse Johnson did not violate Mr. Crowson's
rights. Accordingly, we exercise jurisdiction over the
failure-to-train claim and reverse. But Mr. Crowson
also asserts a claim arising out of the County's
systemic failure. For the reasons explained above, we
lack jurisdiction over this claim.
***
Our conclusion that Nurse Johnson did not violate Mr.
Crowson's constitutional rights does not completely
resolve Mr. Crowson's claims against the County. The
absence of a constitutional violation by Nurse Johnson
forecloses Mr. Crowson's failure-to-train claim.
However, it does not resolve the broader claim that
the County's policy of failing to properly train nurses
and guards, combined with its policy of relying on a
largely absentee physician, evidenced deliberate
indifference to Mr. Crowson's serious medical
condition. Because this claim is not inextricably
intertwined with the claim against any individual
defendant, we lack jurisdiction over it in this
interlocutory appeal. We therefore dismiss the
County's appeal with respect to the systemic failure
claim, and we remand for proceedings consistent with
this opinion. In doing so, we express no view as to the

46a
merits of this claim. We simply decide we lack
jurisdiction to consider it.
III. CONCLUSION
For the foregoing reasons, we REVERSE the district
court's denial of summary judgment to Nurse Johnson
and Dr. LaRowe. We REVERSE the district court's
denial of summary judgment to the County on the
failure-to-train theory of liability, DISMISS the
County's appeal for lack of appellate jurisdiction as to
the systemic failure theory, and REMAND for further
proceedings consistent with this opinion.

47a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH
CENTRAL DIVISION
___________________
Case No. 2:15-CV-00880-TC
Martin Crowson, Plaintiff,

v.
Washington County, Utah, Cory C. Pulsipher, acting
Sheriff of Washington County, Judd LaRowe, and
Michael Johnson, Defendants.
___________________
[February 22, 2017]
___________________
ORDER ON MOTIONS TO DISMISS
___________________
Tena Campbell, United States District Judge.
Claiming that he was mistreated during his
incarceration at Washington County Purgatory
Correctional Facility (the Facility), Martin Crowson
sued Washington County, the Facility, Dr. Judd
Larowe, Sheriff Cory Pulsipher, the Washington
County Sheriff’s Department, and individual lawenforcement officers who worked at the Facility. Mr.
Crowson alleged that the Defendants violated Utah
state law as well as 42 U.S.C. § 1983. After some of
the Defendants filed motions to dismiss, Mr. Crowson

48a
agreed to the dismissal of his state-law claims. Mr.
Crowson also agreed to the dismissal of his § 1983
claim against the Facility and the Washington County
Sheriff’s Department. But Mr.Crowson opposed the
dismissal with prejudice of his § 1983 claim against
Sheriff Pulsipher and Dr. Larowe. As explained below,
the court GRANTS in part and DENIES in part the
motions to dismiss.
BACKGROUND1
Mr. Crowson was arrested for violating the terms of
his probation and was detained at the Facility. A few
days before his arrest, Mr. Crowson had been
hospitalized as the result of “serious medical needs.”
(Am. Compl. ¶ 15, ECF No 7.) While incarcerated at
the Facility, the Facility’s staff placed Mr. Crowson in
solitary confinement even though he had begun
“acting dazed and confused.” (Id. ¶ 16). While in
solitary confinement, Mr. Crowson “began to exhibit
numerous symptoms commensurate with serious
medical needs.” (Id. ¶ 17.) These symptoms rendered
Mr. Crowson unable to communicate effectively,
which prevented him from explaining his need for
emergency medical attention. The Facility’s staff
wrongly “assumed [Mr. Crowson] was under the
influence of or detoxing from drugs or alcohol.” (Id. ¶
30.) Dr. Larowe then prescribed Mr. Crowson
medications based on an incorrect diagnosis. The
prescription medications worsened rather than
alleviated Mr. Crowson’s symptoms. When the
In ruling on a motion to dismiss, the court assumes as true all
well-pleaded facts in a complaint. Gammons v. City & Cty. of
Denver, 505 F. App'x 785, 786 (10th Cir. 2012). Accordingly, the
court recites the facts in this case based on Mr. Crowson’s
allegations in the Amended Complaint.
1

49a
Facility’s staff realized that Mr. Crowson’s condition
had deteriorated, he was transported to a hospital
where he received treatment for the next six days.
Mr. Crowson sued. In his Amended Complaint, Mr.
Crowson alleges four causes of action against the
Defendants, one based on federal law and three based
on state law. His federal-law claim alleges that
Defendants violated 42 U.S.C. § 1983 by subjecting
him to cruel and unusual punishment, and his statelaw claims allege negligence, negligent infliction of
emotional distress, and a violation of the Utah
Constitution.
Defendants filed motions to dismiss, asking the court
to dismiss with prejudice Mr. Crowson’s state-law
claims against all defendants and Mr. Crowson’s §
1983 claims against Sheriff Pulsipher, the Facility,
Washington County Sheriff’s Department, and Dr.
Judd Larowe. (See Def. Judd Larowe M.D.’s Mot. to
Dismiss, ECF No. 30; Mot. for J. on the Pleadings,
ECF No. 38.) Mr. Crowson initially agreed to the
dismissal of his state-law claims against all
Defendants but asked that they be dismissed without
prejudice. However, at a hearing before the court, Mr.
Crowson indicated that he agreed to the dismissal
with prejudice of his state-law claims against all
Defendants and to the dismissal with prejudice of his
§ 1983 claim against the Facility and Washington
County Sheriff’s Department. (See Jan. 31, 2017, Hr’g
16–18.) Mr. Crowson also agreed to the dismissal of
his § 1983 claim against Sheriff Pulsipher but asked
that it be dismissed without prejudice. (Id.)
Now the parties dispute only the following issues: (1)
whether Mr. Crowson’s § 1983 claim against Sheriff
Pulsipher should be dismissed with prejudice, (2)

50a
whether the court should abstain from exercising
jurisdiction over Mr. Crowson’s § 1983 claim against
Dr. Judd Larowe, and (3) whether attorney fees
should be awarded.
DISCUSSION
I. Mr. Crowson’s § 1983 Claim Against Sheriff
Pulsipher Is Dismissed With Prejudice.
Sheriff Pulsipher asserts that the court should
dismiss Mr. Crowson’s § 1983 claim against him
because he is entitled to qualified immunity. Mr.
Crowson agrees that the court should dismiss the
claim, but argues that it should be dismissed without
prejudice.2 When a defendant asserts “the affirmative
defense of qualified immunity, the plaintiff initially
bears a heavy two-part burden.” Romero v. Bd. of Cty.
Comm’rs of Cty. of Lake, State of Colo., 60 F.3d 702,
704 (10th Cir. 1995) (citation and internal quotation
marks omitted). To meet this two-part burden, a
plaintiff must show “(1) that the defendant’s actions
violated a constitutional or statutory right and (2)
that the right allegedly violated [was] clearly
established at the time of the conduct at issue.” Id.
(citation and internal quotation marks omitted). “[I]n
order for the law to be clearly established, there must
be a Supreme Court or Tenth Circuit decision on
point, or the clearly established weight of authority
from other courts must have found the law to be as the

Sheriff Pulsipher also asserts that the court should dismiss Mr.
Crowson’s § 1983 claim because it is not “plausible on its face.”
Bell Atl. Corp. v. Twombly, 550 U.S. 544 (2007). Because the
court concludes that the § 1983 claim against Sheriff Pulsipher
fails on qualified-immunity grounds, the court need not address
this argument.
2

51a
plaintiff maintains.” Woodward v. City of Worland,
977 F.2d 1392, 1397 (10th Cir. 1992) (citation and
internal quotation marks omitted).
Here, Mr. Crowson’s Amended Complaint contains
little reference to Sheriff Pulsipher. The Amended
Complaint first alleges that Sheriff Pulsipher is
“vicariously liable” for the actions of the Facility’s staff
and second alleges that he and other defendants had
“policies in place designed to deprive inmates of their
right to remain free of cruel and unusual
punishment.” (Am. Compl. ¶¶ 45–46, ECF No 7.) But
Mr. Crowson’s first allegation fails because “[a]
supervisor is not liable under § 1983 unless an
affirmative link exists between the [constitutional]
deprivation and either the supervisor’s personal
participation, his exercise of control or direction, or his
failure to supervise.” Specht v. Jensen, 832 F.2d 1516,
1524 (10th Cir. 1987). As a result, “[v]icarious liability
is inapplicable to . . . § 1983 suits.” Ashcroft v. Iqbal,
556 U.S. 662, 676 (2009). And Mr. Crowson’s second
allegation fails because it is too conclusory: it fails to
name
the
alleged
policies,
describe
their
implementation, or define Sheriff Pulsipher’s control,
direction, or supervision over them. Also, Mr. Crowson
points to no caselaw indicating that Sheriff Pulsipher
violated any clearly established law.
Understanding the shortcomings of his § 1983 claim
against Sheriff Pulsipher, Mr. Crowson agrees that
the claim should be dismissed, but asks that the court
dismiss it without prejudice. The court finds that such
a result would prejudice Sheriff Pulsipher. Sheriff
Pulsipher has now spent time and resources briefing
and arguing his motion to dismiss. And Sheriff
Pulsipher has shown that Mr. Crowson’s § 1983 claim

52a
is legally deficient. Consequently, the court will
dismiss the claim with prejudice. See Bartlett v.
Wells, 2009 WL 1146990, at *6 (D. Utah Apr. 28, 2009)
(denying the plaintiff’s request for dismissal without
prejudice because the plaintiff’s claim had “no merit”);
see also Oliver v. Vasbinder, 2009 WL 4584102, at *2
(E.D. Mich. Dec. 2, 2009) (noting that where the
defendant has filed and argued a motion to dismiss,
he would suffer “plain legal prejudice” if the plaintiff’s
claims were dismissed without prejudice).
II. The Court Will Not Abstain from Addressing Mr.
Crowson’s § 1983 Claim Against Dr. Larowe.
Dr. Larowe argues that Mr. Crowson’s § 1983 claim
against him would frustrate the purpose of Utah’s
medical-malpractice statutory scheme and that,
consequently, this court should abstain from
exercising jurisdiction over it. Mr. Crowson responds
that the court’s exercise of jurisdiction over his § 1983
claim against Dr. Larowe would not offend Utah’s
medical-malpractice scheme.
In general, a federal court may “abstain in a case
where a decision from the federal court may frustrate
the purpose of a complex state administrative
system.” Oklahoma ex rel. Doak v. Acrisure Bus.
Outsourcing Servs., LLC, 529 F. App’x 886, 896 (10th
Cir. 2013). This is known as the Burford abstention
doctrine. Burford v. Sun Oil Co., 319 U.S. 315, 332
(1943). But the Burford abstention doctrine provides
only a narrow discretionary exception to the exercise
of federal jurisdiction:
Abstention from the exercise of federal
jurisdiction is the exception, not the rule. The
doctrine of abstention, under which a District

53a
Court may decline to exercise or postpone the
exercise of its jurisdiction, is an extraordinary
and narrow exception to the duty of a District
Court to adjudicate a controversy properly
before it. Abdication of the obligation to decide
cases can be justified under this doctrine only
in the exceptional circumstances where the
order to the parties to repair to the state court
would
clearly
serve
an
important
countervailing interest.
Colorado River Water Conservation Dist. v. United
States, 424 U.S. 800, 813 (1976) (citation and internal
quotation marks omitted).
Dr. Larowe argues that the court should abstain from
exercising jurisdiction over Mr. Crowson’s § 1983
claim because of the Utah Health Care Malpractice
Act (UHCMA), a complex statutory scheme regarding
medical- malpractice lawsuits. Utah enacted the
UHCMA to address the rising number of suits for
medical malpractice, the amount of judgments and
settlements arising from medical-malpractice suits,
the rising cost of medical-malpractice insurance for
health-care providers, the rising cost of health care,
and health-care providers’ reluctance in providing
certain services. Utah Code Ann. § 78B-3-402
(LexisNexis 2012). The UHCMA encourages parties to
“expedite early evaluation and settlement of” their
medical-malpractice claims. Id. § 78B-3-402(3). To
fulfill its goals, the UHCMA requires medicalmalpractice plaintiffs to take certain steps including
“(1) giving notice to the health care provider ninety
days before commencement of the action . . . ; (2)
participating in a prelitigation panel review . . . ; and
(3) filing the complaint within the abbreviated two-

54a
year statute of limitations period.” Carter v. Milford
Valley Mem'l Hosp., 996 P.2d 1076, 1079 (Utah Ct.
App. 2000).
Here, the parties have agreed to the dismissal of Mr.
Crowson’s state-law claims against Dr. Larowe.
However, Mr. Crowson continues pursuing his § 1983
claim, alleging that Dr. Larowe violated his civil
rights by prescribing him the wrong medications in
the wrong dosages, failing “to take any reasonable
steps” to provide “proper medical treatment” even
after noticing his elevated heart rate, and failing to
“follow-up on his significant cognitive and functional
deficiencies and symptoms.” (Am. Compl. ¶¶ 23–24,
28.)
Mr. Crowson’s case is not the typical medicalmalpractice case. Rather, it falls within a narrower
class of cases in which an inmate in a correctional
facility brings a § 1983 claim against an alleged state
actor for medical mistreatment while in custody. For
this reason, exercising jurisdiction here would not
“frustrate the purpose” of the UHCMA. Doak, 529 F.
App'x at 896. Dr. Larowe disagrees with this
conclusion, arguing that the court’s exercise of
jurisdiction over Mr. Crowson’s § 1983 claim “would
have the effect of permitting any litigant to avoid the
requirements of the statute by inappropriately
pleading medical negligence causes of action as civil
rights claims.” (See Def. Judd Larowe M.D.’s Reply
Mem. 2, ECF No. 44.) The court disagrees. Again, Mr.
Crowson’s § 1983 claim is not a typical medicalmalpractice claim. Claims under § 1983 apply only “to
persons who both deprive others of a right secured by
the Constitution or laws of the United States and act
under color of a state statute, ordinance, regulation,

55a
custom or usage.” Carey v. Cont’l Airlines, Inc., 823
F.2d 1402, 1404 (10th Cir. 1987). These claims are
usually not available to the typical medicalmalpractice litigant.
III. Mr. Crowson Must Pay Attorney Fees to Sheriff
Pulsipher.
A Utah statute requires plaintiffs who sue “law
enforcement officer[s] acting within the scope of
[their] official duties” to submit a bond to guarantee
payment of all costs, including “a reasonable
attorney’s fee” as a “condition precedent” to filing suit.
Utah Code Ann. § 78B-3-104(1), (2) (LexisNexis 2012).
The statute also provides that the “prevailing party
shall recover from the losing party all costs and
attorney fees allowed by the court.” Id. § 78B-3-104(1),
(3).
Mr. Crowson, without citing to supporting caselaw,
argues that this statute violates the Utah
Constitution. Mr. Crowson asserts that the statute
precludes him, and other inmates, from access to the
courts and denies him equal protection under the law.
However, Mr. Crowson fails to allege that he was
“unable to furnish the bond or that [he] offered to
provide the bond and was rebuffed.” Snyder v. Cook,
688 P.2d 496, 498 (Utah 1984). Moreover, Mr.
Crowson fails to establish how the provision providing
for attorney fees to the prevailing party violates his
equal protection.
At this point, the parties have agreed that all statelaw claims should be dismissed against all parties and
the court has determined that Mr. Crowson’s§ 1983
claim against Sheriff Pulsipher fails as a matter of
law. Consequently, Sheriff Pulsipher merits attorney

56a
fees under Utah’s statute as the prevailing party.
However, because the case is ongoing, and several
law-enforcement officers remain, the court defers an
accounting and payment of attorney fees until this
case is resolved in its entirety.
ORDER
As explained above, the court GRANTS in part and
DENIES in part the motions to dismiss. (ECF No. 30;
ECF No. 38.) Specifically, the court dismisses with
prejudice all claims against Sheriff Pulsipher, the
Facility,
and
Washington
County
Sheriff’s
Department. The court also dismisses with prejudice
the state- law claims against all Defendants. But the
court will continue exercising jurisdiction over Mr.
Crowson’s § 1983 claim against Dr. Larowe. And
though Sheriff Pulsipher merits attorney fees, the
court defers an accounting and payment of those fees
until the case is completed.
DATED this 22nd day of February, 2017.
BY THE COURT:
TENA CAMPBELL
U.S. District Court Judge

57a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH
CENTRAL DIVISION
___________________
Case No. 2:15-CV-00880-TC
Martin Crowson, Plaintiff,

v.
Washington County, Utah, Cory C. Pulsipher, acting
Sheriff of Washington County, Judd LaRowe, and
Michael Johnson, Defendants.
___________________
[July 19, 2019]
___________________
ORDER AND MEMORANDUM DECISION
___________________
Tena Campbell, United States District Judge.
While an inmate at the Washington County Purgatory
Correctional Facility, Plaintiff Martin Crowson began
suffering from symptoms of toxic metabolic
encephalopathy, a degenerative neurologic disorder
caused by exposure to toxic substances. Rather give
him medical care, medical staff wrongly assumed that
he was withdrawing from drugs or alcohol and placed
him in an observation cell for seven days without
treatment. Mr. Crowson brings claims under 42
U.S.C. § 1983, alleging that the lack of medical care
violated the Eight Amendment's ban on cruel and

58a
unusual punishment, as applied to him as a prehearing detainee by the Fourteenth Amendment. The
remaining Defendants in the case—Michael Johnson
(a nurse), Dr. Judd LaRowe, and Washington
County—have moved for summary judgment. For the
reasons below, the court denies their motions in most
respects.
BACKGROUND FACTS
This case arises from Mr. Crowson's stay in the
Washington County Purgatory Correctional Facility
(the Jail) from June 11, 2014, when he was booked for
a parole violation, until July 1, 2014, when he was
taken to the hospital for what would be diagnosed as
metabolic encephalopathy.
On June 17, 2014, Mr. Crowson was placed in solitary
confinement, known as the "A Block," because of a
disciplinary charge. On the morning of June 25, while
still in solitary confinement, Jail Deputy Brett Lyman
noticed that Mr. Crowson was acting slow and
lethargic. The deputy alerted Defendant Michael
Johnson. As a registered nurse, Nurse Johnson could
not formally diagnose and treat Mr. Crowson. His role
was to assess inmates and communicate with medical
staff who could make diagnoses—in this case, Jon
Worlton, a physician assistant (PA), and Judd
LaRowe, the Jail's physician.
Nurse Johnson evaluated Mr. Crowson that morning.
He noted normal vital signs, but also memory loss: Mr.
Crowson could not remember the kind of work he did
before his arrest. Nurse Johnson instructed jail
deputies to move Mr. Crowson to a medical
observation cell, and entered a request in the medical

59a
recordkeeping system for PA Worlton to conduct a
psychological evaluation.
While being moved to the medical observation cell,
another deputy, Fred Keil, noticed that Mr. Crowson
appeared unusually confused. Deputy Keil performed
a body cavity search on Mr. Crowson; when ordered to
re-dress himself, Mr. Crowson first put on his pants,
then put his underwear on over his pants.
Nurse Johnson checked Mr. Crowson again that
afternoon. He observed that Mr. Crowson's pupils
were dilated but reactive to light, and that Mr.
Crowson appeared alert and oriented. He left the Jail
at the end of his shift without conducting further
physical or mental assessments, and without
contacting Dr. LaRowe. PA Worlton never received
Nurse Johnson's request for a psychological
examination and, according to the Jail's medical
recordkeeping system, no medical personnel checked
on Mr. Crowson for the next two days.
Nurse Johnson returned to work on June 28 and
visited Mr. Crowson in the early afternoon. Mr.
Crowson seemed confused and disoriented and had
elevated blood pressure. He gave one-word answers to
Nurse Johnson's questions, and understood, but could
not follow, an instruction to take a deep breath. After
his visit, Nurse Johnson relayed his observations to
Dr. LaRowe by telephone. Dr. LaRowe ordered that
Mr. Crowson undergo a chest x-ray and a blood test.
The blood test, known as a complete blood count, could
have detected an acid-base imbalance in Mr.
Crowson's blood, a symptom of encephalopathy.
Mr. Crowson never received the x-ray or the blood
test. Nurse Johnson tried to draw Mr. Crowson's blood

60a
on June 28, but couldn't because of scarring on Mr.
Crowson's veins and because Mr. Crowson would not
hold still. Nurse Johnson reported his unsuccessful
attempt to Dr. LaRowe, who made no further
attempts to diagnose Mr. Crowson.
On the morning of June 29, Nurse Johnson again took
Mr. Crowson's vital signs and noted an elevated heart
rate. He also observed noted in the medical
recordkeeping system that Mr. Crowson was still
acting dazed and confused, and was experiencing
delirium tremens, a symptom of alcohol withdrawal.
He again reported his observations to Dr. LaRowe,
who prescribed Librium and Ativan—medicines used
to treat substance withdrawal—and instructed Nurse
Johnson to administer a dose of Ativan. An hour later,
Nurse Johnson checked on Mr. Crowson, who was
sleeping, and noted that his vital signs had returned
to normal.
Nurse Johnson visited Mr. Crowson again that
afternoon. He noted that Mr. Crowson was better able
to verbalize his thoughts and that his vital signs
remained stable. But Mr. Crowson again reported
memory loss, telling Nurse Johnson that he could not
remember the last five days. Nurse Johnson, who still
assumed that that Mr. Crowson was suffering from
substance withdrawal, told Mr. Crowson that he was
in a medical observation cell, and that he would begin
taking medication to help his condition.
The following day, Nurse Ryan Borrowman was
assigned to the medical holding area. Nurse
Borrowman first saw Mr. Crowson on July 1 and
noted that his physical movements were delayed and
that he struggled to focus and would lose his train of
thought. As Nurse Borrowman recounted in his

61a
declaration, "[d]ue to the severity of [Mr. Crowson's]
symptoms and the length of time he had been in a
medical holding cell, I immediately called Dr. LaRowe
for immediate medical care." (Decl. of Ryan
Borrowman ¶ 9 (ECF No. 67).) Dr. LaRowe ordered
Nurse Borrowman to send Mr. Crowson to the
hospital, and Mr. Crowson was transported to the
Dixie Regional Medical Center.
The parties' summary judgment briefs allude to, but
do not explain, Mr. Crowson's circumstances before
and after his incarceration at the Jail. The amended
complaint refers to a hospitalization at Dixie Regional
Medical Center "a few weeks before being arrested
and detained" at the Jail, and states cryptically that
medical history "would have revealed to Facility staff
that Crowson should not have been given any drug
categorized as a benzodiazepine" (such as Librium).
(Am. Compl. ¶ 37 (ECF No. 7).) The hospitalization
appears to have been the result of a heroin overdose.
(Dep. of Martin Crowson at 5:15-6:19, 49:19-22 (ECF
No. 66-2) [hereinafter "Crowson Dep."].)
The parties also do not discuss the after-effects of Mr.
Crowson's encephalopathy. According to the amended
complaint, Mr. Crowson remained in the hospital
until July 7, 2014, and continued to suffer from
"residual effects of encephalopathy, liver disease, and
other problems." (Am. Compl. ¶ 43.) He testified in his
deposition that he spent months recovering at his
mother's house in Hooper, Utah before returning to
the Jail on September 7, 2014:
And then I really don't have a memory for like
the next two-and-a-half months until my
brain—it's like my brain checked out sometime.
Because I guess—I guess I was still eating food

62a
and I was still doing stuff because—and my
mom and my girl was changing my diaper, and
my little brother. They were changing my
diaper the whole time I was in Hooper until
like—I don't even—I don't even—I can't even
say necessarily a certain time that I checked
back in to my brain locker.
(Crowson Dep. at 19:7-15.)
PROCEDURAL BACKGROUND
Mr. Crowson filed this case against Washington
County, the Jail and Jail personnel (including Sheriff
Pulsipher in his individual and official capacities),
alleging negligence under state law, violations of the
Utah Constitution, and violations of the Eighth and
Fourteenth Amendments. A number of parties and
claims have already been dismissed, both by court
order and stipulation of the parties. Most recently, the
court, at the December 19, 2019 hearing on the
present motions, dismissed PA Worlton from the case
because of Mr. Crowson's failure to serve him. Mr.
Crowson's only remaining claims are his § 1983 claims
against Washington County (including Sheriff
Pulsipher in his official capacity), Nurse Johnson, and
Dr. LaRowe.
These remaining Defendants have moved for
summary judgment. Nurse Johnson and Dr. LaRowe
argue that their care did not violate constitutional
standards, and that they are, consequently, entitled
to qualified immunity. Washington County1 seeks

1 Sheriff

Pulsipher only remains in this case in his official

63a
summary judgment on the grounds that none of its
employees committed an underlying constitutional
violation, and that Mr. Crowson cannot show that a
County policy or custom caused Mr. Crowson's
injuries.
The Defendants also argue that Mr. Crowson's claims
should be dismissed because he failed to comply with
the Prison Litigation Reform Act, 42 U.S.C. §
1997e(a), which requires that prisoners exhaust all
available administrative remedies before filing suit
under § 1983.
SUMMARY JUDGMENT STANDARD
A motion for summary judgment should be granted "if
the movant shows that there is no genuine dispute as
to any material fact and the movant is entitled to
judgment as a matter of law. Fed. R. Civ. P. 56(a).
"Judgment as a matter of law is appropriate when the
nonmoving party has failed to make a sufficient
showing on an essential element of his or her case
with respect to which he or she has the burden of
proof." Koch v. City of Del City, 660 F.3d 1228, 1238
(10th Cir. 2011) (quoting Shero v. City of Grove, Okl.,
510 F.3d 1196, 1200 (10th Cir.2007)). When
evaluating a motion for summary judgment, the court
must draw all reasonable inferences in favor of the
non-moving party. Id.

capacity, and "an official-capacity suit brought under § 1983 . . .
is, in all respects other than name, to be treated as a suit against
the entity." Moss v. Kopp, 559 F.3d 1155, 1168 n.13 (10th Cir.
2009). Accordingly, and to avoid confusion about the manner in
which he is being sued, the court will omit reference to Sheriff
Pulsipher when discussing the liability of Washington County.

64a
Nurse Johnson and Dr. LaRowe both raise the defense
of qualified immunity, so the burden on summary
judgment shifts somewhat. "The doctrine of qualified
immunity protects government officials 'from liability
for civil damages insofar as their conduct does not
violate clearly established statutory or constitutional
rights of which a reasonable person would have
known.'" Pearson v. Callahan, 555 U.S. 223, 231, 129
S. Ct. 808, 172 L. Ed. 2d 565 (2009) (quoting Harlow

v. Fitzgerald, 457 U.S. 800, 818, 102 S. Ct. 2727, 73 L.
Ed. 2d 396 (1982)). It provides "immunity from suit
rather than a mere defense to liability." Mitchell v.
Forsyth, 472 U.S. 511, 526, 105 S. Ct. 2806, 86 L. Ed.
2d 411 (1985) (emphasis omitted). Though the court
must still view the evidence in a light most favorable
to Mr. Crowson, he bears the two-part burden of
demonstrating (1) that Nurse Johnson and Dr.
LaRowe violated his constitutional rights, and (2) that
the law supporting the violations was clearly
established when the alleged violations occurred.

Tenorio v. Pitzer, 802 F.3d 1160, 1164 (10th Cir.
2015).
ANALYSIS
Individual Defendants

The Eight Amendment imposes an obligation on the
government "to provide medical care for those whom
it is punishing by incarceration." Estelle v. Gamble,
429 U.S. 97, 103, 97 S. Ct. 285, 50 L. Ed. 2d 251 (1976).
"An inmate must rely on prison authorities to treat his
medical needs; if the authorities fail to do so, those
needs will not be met." Id. And sufficiently egregious
failures—those reflecting "deliberate indifference to
serious medical needs of prisoners"—violate the Eight
Amendment and are actionable under § 1983. Id. This

65a
constitutional protection "applies to pretrial detainees
through the due process clause of the Fourteenth
Amendment." Howard v. Dickerson, 34 F.3d 978, 980
(10th Cir. 1994).
The deliberate indifference test has two parts—one
objective, the other subjective. First, "the deprivation
alleged must be, objectively, 'sufficiently serious.'"

Farmer v. Brennan, 511 U.S. 825, 834, 114 S. Ct.
1970, 128 L. Ed. 2d 811 (1994) (quoting Wilson v.
Seiter, 501 U.S. 294, 298, 111 S. Ct. 2321, 115 L. Ed.
2d 271 (1991)). "[A] medical need is sufficiently
serious 'if it is one that has been diagnosed by a
physician as mandating treatment or one that is so
obvious that even a lay person would easily recognize
the necessity for a doctor's attention.'" Hunt v. Uphoff,
199 F.3d 1220, 1224 (10th Cir. 1999) (quoting Ramos
v. Lamm, 639 F.2d 559, 575 (10th Cir.1980)).
The subjective component requires that a prison
official "knows of and disregards an excessive risk to
inmate health or safety." Farmer, 511 U.S. at 837.
That is, "the official must both be aware of the facts
from which the inference could be drawn that a
substantial risk of serious harm exists, and he must
also draw that inference"—a standard equivalent to
criminal-law recklessness. Id.
I. Sufficiently Serious
Nurse Johnson and Dr. LaRowe argue that Mr.
Crowson cannot show that his medical need was
sufficiently serious because he "was not known to be
suffering from a serious medical ailment by anybody,"
and "nobody noticed [that he] had a serious injury
after being examined by multiple medical personnel."

66a
(Cnty. Defs.' Mot. Summ. J. at 12 (ECF No. 66).) Their
argument misses the mark.
The determination of whether a medical need is
sufficiently serious should not "be made exclusively by
the symptoms presented at the time the prison
employee has contact with the prisoner." Mata v. Saiz,
427 F.3d 745, 753 (10th Cir. 2005). Rather, the court
must consider "the ultimate harm" as alleged by the
plaintiff. Id. at 754.
In this case, Mr. Crowson suffered from metabolic
encephalopathy, an undisputedly serious condition
warranting immediate care. He suffered from
debilitating aftereffects for months. A reasonable jury
could find that his medical needs were sufficiently
serious to satisfy the objective prong of the deliberate
indifference test, even absent obvious symptoms or an
accurate diagnosis.
II. Deliberate Indifference
The subjective prong of the deliberate indifference test
asks whether Nurse Johnson and Dr. LaRowe were
aware of a substantial risk of serious harm. "Whether
a prison official has the requisite knowledge of a
substantial risk is a question of fact subject to
demonstration in the usual ways, including inference
from circumstantial evidence." Farmer, 511 U.S. at
842. While actual knowledge would certainly suffice,
"a factfinder may conclude that a prison official knew
of a substantial risk from the very fact that the risk
was obvious." Id.
A. Nurse Johnson
The Tenth Circuit recognizes two ways in which
healthcare providers may be deliberately indifferent.
"First, a medical professional may fail to treat a

67a
serious medical condition properly." Sealock v.
Colorado, 218 F.3d 1205, 1211 (10th Cir. 2000).
Second, a prison official may "prevent an inmate from
receiving treatment or deny him access to medical
personnel capable of evaluating the need for
treatment." Id. In the Jail's healthcare scheme, Nurse
Johnson acted as a "gatekeeper" for further medical
care, implicating the second theory of liability.
Nurse Johnson did not know that Mr. Crowson was
suffering from encephalopathy. Still, there is evidence
that he was aware of the need for prompt medical
care. The two deputies who interacted with Mr.
Crowson on the morning of June 25 noticed alarming
symptoms. Deputy Lyman, who summoned Nurse
Johnson, observed Mr. Crowson acting with
uncharacteristic lethargy. Deputy Keil recalled that
Mr. Crowson was disoriented to the point that he
could not properly dress himself.
Nurse Johnson himself noted that Mr. Crowson was
"dazed and confused," and "unable to remember what
kind of work he did prior to being arrested." (Medical
Records at 28 (ECF No. 71) [hereinafter "Medical
Records"].) He admitted in his declaration that,
despite recording normal vital signs, he "was
concerned [Mr. Crowson] may be suffering from some
medical problem." (Decl. of Michael Johnson ¶ 11
(ECF No. 68).) But, despite his gatekeeper role, Nurse
Johnson placed Mr. Crowson in an observation cell
and left his shift without ensuring that Mr. Crowson
would receive further care. He did not alert Dr.
LaRowe, and PA Worlton never received Nurse
Johnson's request for a mental health evaluation.
According to medical records, Mr. Crowson did not

68a
receive any follow-up evaluation or care from medical
staff for the next two days.
When Nurse Johnson returned to work on June 28,
Mr. Crowson's symptoms had persisted beyond the
expected timeframe for substance withdrawal.
Though Nurse Johnson did then alert Dr. LaRowe to
Mr. Crowson's condition, he failed to tell Dr. LaRowe
that Mr. Crowson had already been in a medical
observation cell for three days and in solitary
confinement for nine days before that. (See Dep. of
Judd LaRowe at 44:1-17 (ECF No. 91-2).) Mr. Crowson
is entitled to the inference that Nurse Johnson, by
failing to provide even this basic patient history, again
prevented Mr. Crowson from receiving an accurate
diagnosis or appropriate treatment.
This is not to say that all of Nurse Johnson's conduct
suggests deliberate indifference. When Nurse
Johnson tried and failed to take Mr. Crowson's blood,
he informed Dr. LaRowe—shifting the impetus to the
doctor to order Mr. Crowson to the hospital for a blood
draw. Under a theory of gatekeeper liability, Nurse
Johnson satisfied his obligation to pass on key
information to the treating physician. Nonetheless, a
reasonable jury could conclude that Nurse Johnson's
earlier inactions—the failures to seek medical care
and provide Dr. LaRowe with a full accounting of Mr.
Crowson's symptoms—amounted to deliberate
indifference.
B. Dr. LaRowe
Dr. LaRowe never visited the Jail during Mr.
Crowson's stay in the medical observation cell. Still,
as Mr. Crowson's treating physician, he may be liable
for his "fail[ure] to treat a medical condition properly."

69a

Sealock, 218 F.3d at 1211. While Dr. LaRowe "has
available the defense that he was merely negligent in
diagnosing or treating the medical condition," id.,
there is sufficient evidence in the record from which a
jury could conclude that he instead acted with
deliberate indifference.
Nurse Johnson alerted Dr. LaRowe to Mr. Crowson's
condition on June 28; according to that day's medical
records, Mr. Crowson continued to appear confused
and disoriented, gave one-word answers to questions,
and had elevated blood pressure. Despite knowing of
these symptoms, Dr. LaRowe made only minimal
efforts to diagnose Mr. Crowson's condition. He
ordered a blood test, an effective diagnostic tool. Yet
after learning that Nurse Johnson could not perform
the blood draw, he ended his inquiry and wrongly
assumed that Mr. Crowson was experiencing drug
withdrawals. Without an accurate diagnosis in hand,
he prescribed a benzodiazepine drug that worsened
Mr. Crowson's encephalopathy.
Dr. LaRowe argues that there is no evidence that he
"was aware, drew any inferences, or strongly
suspected that Plaintiff could be suffering from
encephalopathy or any other serious condition."
(LaRowe Reply in Supp. of Mot. Summ. J. at 13 (ECF
No. 86).) Instead, he argues that "the undisputed facts
show that [he] understood that Mr. Crowson exhibited
nonspecific— or vague—symptoms, which could have
been characterized any number of diagnoses, one of
which being substance withdrawal—a common
occurrence in the jail." (LaRowe Mot. Summ. J. at 7
(ECF No. 73).)
In support, Dr. LaRowe cites to Mata v. Saiz, a case in
which an inmate suffered a heart attack. A nurse in

70a
that case, Donna Quintana, performed an EKG test
on the inmate after the inmate reported chest pain,
but the test produced normal results. Trusting the
test results, she released the inmate from the
infirmary with instructions to return if the pain
worsened. The panel found that Nurse Quintana had
not acted with deliberate indifference because she
subjectively believed that the inmate was not
suffering a heart attack, and "made a good faith effort
to diagnose to diagnose and treat [the plaintiff's]
medical condition." Mata, 427 F.3d at 760-61.
Unlike Nurse Quintana, Dr. LaRowe failed to assess,
diagnose, or even visit Mr. Crowson. Though he saw
reason to order a blood test, he did not follow up to
ensure the test occurred after Nurse Johnson's
unsuccessful attempt to draw Mr. Crowson's blood.
Instead, and despite vague and nonspecific symptoms,
he prescribed medication based on his unverified
suspicion that Mr. Crowson was suffering from
withdrawals. He did not misdiagnose Mr. Crowson,
but rather failed to conduct diagnostic tests that
would have informed him of Mr. Crowson's medical
needs. A reasonable jury could find that Dr. LaRowe's
failure to seek an accurate diagnosis amounted to
deliberate indifference.
III. Qualified Immunity
As discussed above, Mr. Crowson has presented
sufficient evidence from which a reasonable jury could
find that Nurse Johnson and Dr. LaRowe acted with
deliberate indifference. But because Nurse Johnson
and Dr. LaRowe raise the defense of qualified
immunity, the court must consider whether the
alleged constitutional violations were clearly
established at the time they occurred—that is,

71a
"whether 'the contours of a right are sufficiently clear
that every reasonable official would have understood
that what he is doing violates that right.'" Estate of

Booker v. Gomez, 745 F.3d 405, 411 (10th Cir. 2014)
(quoting Ashcroft v. al-Kidd, 563 U.S. 731, 741, 131 S.
Ct. 2074, 179 L. Ed. 2d 1149 (2011)). "Ordinarily, in

order for the law to be clearly established, there must
be a Supreme Court or Tenth Circuit decision on
point, or the clearly established weight of authority
from other courts must have found the law to be as the
plaintiff maintains." Id. at 427 (quoting Fogarty v.
Gallegos, 523 F.3d 1147, 1161 (10th Cir. 2008)).
As the Tenth Circuit has recognized, "there is little
doubt that deliberate indifference to an inmate's
serious medical need is a clearly established
constitutional right." Mata, 427 F.3d at 749. Further,
Tenth Circuit law makes clear that the particular
conduct in this case could amount to a constitutional
violation. Nurse Johnson is a "medical professional
[who] knows that his role in a particular medical
emergency is solely to serve as a gatekeeper for other
medical personnel capable of treating the condition,"
but who, a reasonable jury could find, "delay[ed] or
refuse[d] to fulfill that gatekeeper role due to
deliberate indifference." Sealock, 218 F.3d at 1211.
Dr. LaRowe "did not simply misdiagnose" Mr.
Crowson, he "refused to assess or diagnose [his]
condition at all" and simply assumed he was
experiencing substance withdrawals. Mata, 427 F.3d
at 758. Neither Nurse Johnson nor Dr. LaRowe are
entitled to qualified immunity.
Washington County
Mr. Crowson also seeks to hold Washington County
liable under § 1983. Local governments can be held

72a
liable for constitutional violations, but not simply for
the unconstitutional acts of their employees. Monell v.

Dep't of Soc. Servs. of City of New York, 436 U.S. 658,
691, 98 S. Ct. 2018, 56 L. Ed. 2d 611 (1978). Rather, a
plaintiff "must show 1) the existence of a municipal
policy or custom, and 2) that there is a direct causal
link between the policy or custom and the injury
alleged." Bryson v. City of Oklahoma City, 627 F.3d
784, 788 (10th Cir. 2010) (quoting Hinton v. City of
Elwood, 997 F.2d 774, 782 (10th Cir.1993)). "Official
municipal policy includes the decisions of a
government's lawmakers, the acts of its policymaking
officials, and practices so persistent and widespread
as to practically have the force of law." Connick v.

Thompson, 563 U.S. 51, 61, 131 S. Ct. 1350, 179 L. Ed.
2d 417 (2011).

A plaintiff must also "demonstrate that the municipal
action was taken with 'deliberate indifference' as to its
known or obvious consequences." Bd. of Cnty.

Comm'rs of Bryan Cnty., Okl. v. Brown, 520 U.S. 397,
407, 117 S. Ct. 1382, 137 L. Ed. 2d 626 (1997).
Importantly, the deliberate indifference standard
used to determine municipal liability differs from the
deliberate indifference standard used to determine
individual liability. With individual liability,
"deliberate indifference is a subjective standard
requiring actual knowledge of a risk by the official."

Barney v. Pulsipher, 143 F.3d 1299, 1308 n.5 (10th
Cir. 1998). But here, "[i]n the municipal liability
context, deliberate indifference is an objective
standard which is satisfied if the risk is so obvious
that the official should have known of it." Id.
Mr. Crowson alleges that Washington County is liable
for its failure to train Jail nurses—specifically, for its

73a
failure to promulgate written policies for Jail nurses
to follow. To prevail on such a failure-to-train theory,
a plaintiff must typically show "a pattern of tortious
conduct by inadequately trained employees." Brown,
520 U.S. at 407-08. The "continued adherence to an
approach that they know or should know has failed to
prevent tortious conduct by employees may establish
the conscious disregard for the consequences of their
action—the 'deliberate indifference'—necessary to
trigger municipal liability." Id. at 407 (quoting City of

Canton, Ohio v. Harris, 489 U.S. 378, 390 n.10, 109 S.
Ct. 1197, 103 L. Ed. 2d 412 (1989)).
Mr. Crowson has not alleged—or proffered evidence to
show—a pattern of constitutional violations. But "in a
narrow range of circumstances," a pattern of
violations may not be necessary to establish liability.
Id. at 409. Instead, a single violation "may be a highly
predictable consequence of a failure to equip
[municipal employees] with specific tools to handle
recurring situations." Id. "The high degree of
predictability may also support an inference of
causation—that the municipality's indifference led
directly to the very consequence that was so
predictable." Id. at 409-10.

Based on the evidence submitted by the parties, the
County's healthcare policies at the time of Mr.
Crowson's incarceration seem severely lacking. There
are no written policies in the record. Instead, the
County describes the Jail's general customs and
practices for providing medical care to inmates using
the deposition testimony of various medical

74a
personnel.2 Dr. LaRowe was responsible for
diagnosing and treating inmates, but only visited the
Jail one or two day a week, for two to three hours at a
time. He relied heavily on the Jail's deputies and
nurses. When an inmate was placed in a medical
observation cell, Jail deputies observed inmates at
least once every thirty minutes, and would notify a
Jail nurse when "this guy is not acting right or this
guy is having problems." (Dep. of Michael Johnson at
32:4-10 (ECF No. 76-7).) Jail nurses—who, by law,
could not diagnose inmates—generally spent five to
ten minutes with the inmate once every twelve-hour
shift, to take the inmate's vital signs and conduct
follow-up checks. If an inmate exhibited symptoms of
a cognitive problem (as did Mr. Crowson), the nurse
would inform Dr. LaRowe and PA Worlton, who, in
addition to his role as the Jail's health services
administrator, handles mental health care.
Within this framework, nurses were left largely to
their own devices. Nurse Johnson testified that the
Jail has no guidelines or written policies for assessing
brain injuries, such as the type suffered by Mr.
Crowson. He testified that Dr. LaRowe provided
training for alcohol withdrawal, but that he could not
remember a protocol or standards for assessing
withdrawal symptoms (the parties have not cited to a
written policy in the record). PA Worlton testified that
the Jail does not have a written policy or procedure for
nurses to follow when placing an inmate in an
2 After

the hearing on the present motions, Nurse Johnson and
Washington County filed a motion (ECF No. 91) to supplement
the record with additional pages of deposition testimony. Mr.
Crowson has not filed an opposition, and court will grant the
motion.

75a
observation cell to detox, or a written protocol for
evaluating inmates once in detox. Additionally, Dr.
LaRowe testified that the Jail had no set policy to
determine when an inmate should be transported to
the hospital. Such a decision was usually based on a
discussion between Dr. LaRowe and the nurses.
Remarkably, it appears from the record that
Washington County failed to promulgate written
policies pertaining to the Jail's core healthcare
functions.
A reasonable factfinder could conclude that these
policy deficiencies caused Mr. Crowson's injury. Mr.
Crowson required immediate hospitalization on June
25, but instead spent days in a medical observation
cell with only intermittent medical attention. Later,
the Jail's medical staff treated Mr. Crowson as if he
were withdrawing from drugs or alcohol, and without
a diagnosis in hand. The drug protocol for withdrawal
may have worsened Mr. Crowson's actual condition.
This maltreatment can be seen as an obvious
consequence of the County's reliance on a largely
absentee physician, and an attendant failure to
promulgate written protocols for monitoring,
diagnosing, and treating inmates.3 In light of these

3 As

an additional basis for county liability, Mr. Crowson
challenges County's failure to provide access to medical
treatment to inmates in solitary confinement. But Mr. Crowson
has not presented any evidence that he suffered symptoms of
encephalopathy before June 25, when Deputy Lyman observed
him acting strangely and summoned Nurse Johnson. Without
such evidence, a factfinder cannot infer that a County policy or
custom concerning solitary confinement actually caused Mr.
Crowson's injury. Washington County is entitled to summary
judgment on this theory of liability.

76a
policy deficiencies, the County is not entitled to
summary judgment.
Prison Litigation Reform Act
As a final matter, the Defendants contend that Mr.
Crowson has not complied with the Prison Litigation
Reform Act (PLRA), which states that "[n]o action
shall be brought with respect to prison conditions
under section 1983 of this title, or any other Federal
law, by a prisoner confined in any jail, prison, or other
correctional facility until such administrative
remedies as are available are exhausted." 42 U.S.C. §
1997e(a). But the court cannot resolve this issue based
on the present record.
Though the PLRA requires exhaustion, "it is the
prison's requirements, and not the PLRA, that define
the boundaries of proper exhaustion." Jones v. Bock,

549 U.S. 199, 218, 127 S. Ct. 910, 166 L. Ed. 2d 798
(2007). The court must evaluate the precise grievance

procedures in place at the time of the inmate's
detention, see Cantwell v. Sterling, 788 F.3d 507, 509
(5th Cir. 2015), and consider whether the procedures
were available to the inmate—that is, "'capable of use'
to obtain 'some relief for the action complained of.'"

Ross v. Blake, 136 S. Ct. 1850, 1859, 195 L. Ed. 2d 117
(2016) (quoting Booth v. Churner, 532 U.S. 731, 738,
121 S. Ct. 1819, 149 L. Ed. 2d 958 (2001)).
Washington County has not provided its actual
grievance procedures to the court. Instead, it cites to
Sheriff Pulsipher's declaration, in which he gives a
general overview of "a comprehensive grievance
system" available to inmates:
Any grievances or complaints are handled by
the first line supervisor, and any appeals are

77a
handled by the next line supervisor (e.g. a
complaint against a deputy would be handled
by a sergeant and the appeal would be handled
by a lieutenant), after two levels of appeals, an
inmate has exhausted their administrative
remedies and the issue would be ripe for a
lawsuit. I would only receive an appeal for a
grievance or complaint if it was made against a
chief or undersheriff. Any policy issues related
to prisoners, jail staff, or any other issues
related to the jail are appealed to me. If an
inmate appellant disagrees with my decision,
he or she can file a lawsuit.
The grievance policy was always available for
inmates to file grievances and complaints to
address any type of harm.
(Decl. of Cory Pulsipher ¶¶ 10-11 (ECF No. 69).)
From this bare description, the court cannot
determine the process an inmate would use to lodge a
grievance, or whether Mr. Crowson could have
effectively used the procedure during his
incarceration. The Defendants have not met their
burden of showing that Mr. Crowson failed to exhaust
his available remedies.
ORDER
For the foregoing reasons, the court orders as follows:
1. Nurse Johnson's and Washington County's Motion
to Supplement the Record (ECF No. 91) is GRANTED;
2. Nurse Johnson's and Washington County's Motion
for Summary Judgment (ECF No. 66) is GRANTED
IN PART AND DENIED IN PART—Washington
County is entitled to summary judgment on Mr.

78a
Crowson's § 1983 claim based on its solitary
confinement policy (see note 3, supra), but the Motion
is otherwise denied;
3. Dr. LaRowe's Motion for Summary Judgment (ECF
No. 73) is DENIED; and
4. Defendant Jon Worlton is hereby DISMISSED from
this case for Mr. Crowson's failure to effect timely
service.
DATED this 19th day of July, 2019.
BY THE COURT:
/s/ Tena Campbell
TENA CAMPBELL
U.S. District Court Judge

79a
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
___________________
No. 19-4118
D.C. Docket No. 2:15-CV-00880-CW-TC
MARTIN CROWSON,
PLAINTIFF-APPELLEE,
V.

WASHINGTON COUNTY STATE OF UTAH, ET AL.,
DEFENDANTS-APPELLANTS.
___________________
ORDER
[February 18, 2021]
___________________
Appeal from the United States District Court
for the District of Utah

80a
Before MATHESON, BACHARACH, AND MCHUGH, Circuit
Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was
transmitted to all of the judges of the court who are in
regular active service. As no member of the panel and
no judge in regular active service on the court
requested that the court be polled, that petition is also
denied.
Entered for the Court
CHRISTOPHER M. WOLPERT, Clerk

